APPENDIX

Case: 19-50104, 02/09/2021, ID: 11997220, DktEntry: 51-1, Page 1 of 5

FILED

NOT FOR PUBLICATION

FEB 9 2021

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

U.S. COURT OF APPEALS

19-50104

D.C. No.
3:17-cr-04414-CAB-2

v.
MEMORANDUM*

NANCY COLE,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of California
Cathy Ann Bencivengo, District Judge, Presiding
Submitted June 4, 2020**
Pasadena, California
Before: CALLAHAN and NGUYEN, Circuit Judges, and KANE,*** District
Judge.
Nancy Cole appeals her conviction and sentence for importing and

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel withdrew submission of this appeal pending resolution of
United States v. Collazo, --- F.3d ----, No. 15-50509, 2021 WL 129792 (9th Cir.
Jan. 14, 2021) (en banc). The panel hereby resubmits this case as of the date this
memorandum is filed.
***

The Honorable Yvette Kane, United States District Judge for the
Middle District of Pennsylvania, sitting by designation.

1

Case: 19-50104, 02/09/2021, ID: 11997220, DktEntry: 51-1, Page 2 of 5

conspiring to import more than 500 grams of a substance containing
methamphetamine, in violation of 21 U.S.C. §§ 952, 960, and 963. Having
jurisdiction over this appeal under 28 U.S.C. § 1291, we affirm.
1. The district court properly declined to award Cole “safety valve” relief
under 18 U.S.C. § 3553(f), which can entitle a defendant to a sentence below the
mandatory minimum for “truthfully provid[ing] to the government all information
and evidence [she] has concerning the offense.” Although Cole admitted to
smuggling drugs into the United States, she claimed that she did so only because
her then-boyfriend threatened to kill her children if she refused. Yet messages
Cole exchanged with this man show that he was concerned about Cole’s and their
child’s safety and that Cole was the one threatening to harm him. In light of this
evidence, the court did not clearly err in finding that Cole failed to prove that she
provided truthful information to the government.1 See United States v. RealHernandez, 90 F.3d 356, 361 (9th Cir. 1996) (explaining that the defendant must
“truthfully supply details of his own culpability”).
Relying on United States v. Haymond, 139 S. Ct. 2369 (2019) (plurality
opinion), Cole protests that § 3553(f) unconstitutionally relieves the government of

1

The district court’s decision on this point satisfies Federal Rule of Criminal
Procedure 32. See United States v. Ingham, 486 F.3d 1068, 1074 (9th Cir. 2007)
(“[Rule 32 findings] need not be detailed and lengthy. Rather, they need only state
the court’s resolution of the disputed issues.” (quotations and citation omitted)).
2

2

Case: 19-50104, 02/09/2021, ID: 11997220, DktEntry: 51-1, Page 3 of 5

having to prove to a jury facts triggering an increased minimum sentence. This
argument conflates relief from an earned sentence with the elements of the crime
underpinning that sentence. See Lizarraga-Carrizales, 757 F.3d 995, 999 (9th Cir.
2014); United States v. Fincher, 929 F.3d 501, 504-05 (7th Cir. 2019). Haymond
is readily distinguishable, as it dealt with supervised-release violations resulting in
new mandatory minimums without the violations having been proven to a jury.
139 S. Ct. at 2378-80. Here, however, the jury’s findings authorized the sentence
imposed, and the onus of establishing an entitlement to less time appropriately
rested upon Cole.
2. We also reject Cole’s argument that the jury instructions and
government’s summation constructively amended her indictment. Pointing out
that the indictment charged her with knowingly importing and conspiring to import
methamphetamine, specifically, rather than a controlled substance, generally, Cole
contends that the government locked itself into having to prove her knowledge of
the drug type and quantity. But constructive amendments occur when “the
defendant is charged with one crime but, in effect, is tried for another crime.”
United States v. Pang, 362 F.3d 1187, 1194 (9th Cir. 2004). That did not happen
here, and at any rate “the indictment was not constructively amended . . . because .
. . [Cole’s] knowledge of drug type and quantity . . . was not ‘essential’ to [her]
conviction.” United States v. Sua, 307 F.3d 1150, 1155 (9th Cir. 2002).

3

3

Case: 19-50104, 02/09/2021, ID: 11997220, DktEntry: 51-1, Page 4 of 5

Furthermore, as Cole never broached this issue with the district court, we
review the matter for plain error, which requires Cole to show that any error
affected her substantial rights. United States v. Mickey, 897 F.3d 1173, 1183 (9th
Cir. 2018). This she cannot do. Her theory at trial was that she was wholly
innocent—that, unbeknownst to her, smugglers placed “drugs” in her car. She did
not argue that she believed she was smuggling some substance other than
methamphetamine. Because there is no “credible argument” that her trial strategy
and outcome would have been the same had the indictment advanced a more
general allegation, she was not prejudiced by its wording. See id. at 1184
(affirming a conviction where the defendant would not have approached his
defense any differently had the indictment hewed more closely to the statutory
language).
3. Nor did 21 U.S.C. § 960(b) otherwise require the government to prove
that Cole knew the type and quantity of the controlled substance she smuggled into
the United States. United States v. Jefferson, 791 F.3d 1013, 1019 (9th Cir. 2015),
forecloses this argument, and we recently reiterated our position in United States v.
Collazo, --- F.3d ----, No. 15-50509, 2021 WL 129792 (9th Cir. Jan. 14, 2021) (en
banc). There we held that a similar statute required the government to “prove
beyond a reasonable doubt the specific type and the quantity of substance involved
in the offense, but not the defendant’s knowledge of (or intent) with respect to that

4

4

Case: 19-50104, 02/09/2021, ID: 11997220, DktEntry: 51-1, Page 5 of 5

type and quantity.” Id. at *14. The government met that burden here.
Contrary to Cole’s contention, Rehaif v. United States, 139 S. Ct. 2191
(2019), does not compel a different result. First, that case concerned a statute
structured much differently than § 960(b). Id. at 2195-96. Second, the Court
required a mens rea for the one element separating the criminal conduct from
otherwise innocent behavior. Id. at 2196-97. In comparison, § 960(b) requires
defendants to knowingly import a controlled substance and thus does not punish
those lacking a culpable mental state. Rehaif is therefore not especially relevant to
this case.
4. Finally, we disagree with Cole that 21 U.S.C. § 960(b) is unconstitutional
for imposing sentences disproportionate to a defendant’s awareness of the
underlying circumstances. So long as the defendant “recognizes [that she] is doing
something culpable, . . . [she] need not be aware of the particular circumstances
that result in greater punishment.” United States v. Flores-Garcia, 198 F.3d 1119,
1121-22 (9th Cir. 2000); see also Collazo, 2021 WL 129792, at *13. Accordingly,
Cole was properly convicted and sentenced for importing and conspiring to import
500 grams or more of methamphetamine, even if the government did not prove her
knowledge of those specific facts.
AFFIRMED.

5

5

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

Synopsis
Background: Five defendants were convicted in the United
States District Court for the Southern District of California,
Roger T. Benitez, Senior District Judge, of conspiracy to
distribute controlled substances. Defendants appealed.

984 F.3d 1308
United States Court of Appeals, Ninth Circuit.

UNITED STATES of
America, Plaintiff-Appellee,
v.
Robert COLLAZO, aka
Weasel, Defendant-Appellant.
United States of America,
Plaintiff-Appellee,
v.
Lino Delgado-Vidaca, aka
Leonard Delgado, aka
Spanky, Defendant-Appellant.
United States of America,
Plaintiff-Appellee,
v.
Julio Rodriguez, aka Sniper,
Defendant-Appellant.
United States of America,
Plaintiff-Appellee,
v.
Steven Amador, aka Gordo, aka
Insane, Defendant-Appellant.
United States of America,
Plaintiff-Appellee,
v.
Isaac Ballesteros, aka Lazy,
Defendant-Appellant.

Holdings: On denial of rehearing en banc, the Court of
Appeals, en banc, Ikuta, Circuit Judge, held that:
[1] to obtain a drug conspiracy conviction, the government
must prove that each defendant agreed with another that some
member would commit a drug offense;
[2] a conviction and the imposition of the penalties for
distributing controlled substances does not require knowledge
of the relevant drug type or quantity;
[3] to obtain a conviction for conspiracy to distribute
controlled substances the government need not prove the
defendant's knowledge of the drug type and quantity; and
[4] the Pinkerton standard for coconspirator liability does not
apply when the defendants are charged only with conspiracy,
overruling United States v. Becerra, 992 F.2d 960, and United
States v. Banuelos, 322 F.3d 700.
Remanded to three-judge panel.
Fletcher, Circuit Judge, filed dissenting opinion in which
Thomas, Chief Judge, and Nguyen, Watford, and Hurwitz,
Circuit Judges, joined.
Opinion, 982 F.3d 596, superseded.

West Headnotes (55)

No. 15-50509, No. 16-50048, No.
16-50117, No. 16-50195, No. 16-50345
|
Argued and Submitted En Banc
January 13, 2020 Pasadena, California
|
Filed December 2, 2020
|
Amended January 14, 2021

[1]

Criminal Law

Review De Novo

The appellate court reviews de novo whether the
jury instructions accurately define the elements
of a statutory offense.

[2]

6

Conspiracy

Controlled Substances

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

a knowing connection of the defendant with
the conspiracy, even though the connection is
slight, is sufficient to convict him of knowing
participation in the conspiracy.

Interpretation of the statute regarding drug
conspiracies is guided by well-established
principles of conspiracy law. Comprehensive
Drug Abuse Prevention and Control Act of 1970
§ 406, 21 U.S.C.A. § 846.

[3]

Conspiracy

[9]
As essence of conspiracy

The essence of conspiracy is an agreement to
commit an unlawful act.

[4]

Conspiracy

Combination or Agreement

Conspiracy
objective

Success; attainment of

At minimum, to prove a knowing connection
with the conspiracy, the government must show
that each defendant knew or had a reason to
know of the scope of the conspiracy and that each
defendant had reason to believe that their own
benefits were dependent upon the success of the
entire venture.

The agreement itself is the conspiracy offense,
and it is not necessary for the government to
prove that the defendant or other participants
committed the unlawful object of the conspiracy.

[5]

Conspiracy

1 Cases that cite this headnote
[10]

Conspiracy
Evidence

Overt act

[11]

Weight and Sufficiency of

[12]

Inferences from circumstantial

Conspiracy
Evidence

Combination or agreement

Liability for acts of
Conspiracy
coconspirators; Pinkerton doctrine
A defendant convicted of conspiracy may be
held criminally liable for substantive offenses
committed by other members of the conspiracy,
so long as the offenses were reasonably
foreseeable and committed in furtherance of the
conspiracy.

To find a defendant guilty of conspiracy, a factfinder may infer the existence and scope of
the agreement from the facts and circumstances
established at trial.

[8]

Conspiracy

1 Cases that cite this headnote

1 Cases that cite this headnote
Conspiracy
evidence

Combination or Agreement

When the government proves that a defendant
had a knowing connection with an extensive
enterprise, and had reason to know of its scope, a
fact-finder may infer that the defendant agreed to
the entire unlawful scheme, which would support
a conspiracy conviction.

The government is not required to prove every
detail of the agreement to prove a conspiracy.

[7]

Conspiracy

Although conspirators must pursue the same
criminal objective, a conspirator need not agree
to commit or facilitate each and every part of the
substantive offense.

Under common-law conspiracy, the government
does not have to prove that the defendant or a
coconspirator took an overt act in furtherance of
the agreement.

[6]

Conspiracy
Knowledge and intent as to
combination, agreement, and participation

Weight and Sufficiency of
[13]

Once the existence of a conspiracy is shown,
evidence establishing beyond a reasonable doubt

7

Conspiracy
Knowledge and intent as to
combination, agreement, and participation

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

The Sixth Amendment provides that those
accused of a crime have the right to a trial by
an impartial jury, and this right, in conjunction
with the Due Process Clause, requires that each
element of a crime be proved to the jury beyond
a reasonable doubt. U.S. Const. Amends. 5, 6.

To prove a conspiracy, the government must
prove that the defendant had the intent to
effectuate the object of the conspiracy.

[14]

Conspiracy

Controlled Substances

In order to convict a defendant of a drug
conspiracy, the government must prove beyond
a reasonable doubt that (1) the defendant
agreed with another person that some member
of the conspiracy would commit the relevant
underlying offense, and that (2) the defendant
had the requisite intent necessary for a conviction
of the underlying offense. Comprehensive Drug
Abuse Prevention and Control Act of 1970 § 406,
21 U.S.C.A. § 846.

[15]

Conspiracy
participation

[18]

Jury
of Jury

Conspiracy
participation

Knowledge, intent, and

[19]

[20]

Reasonable Doubt

Competence for Trial of Cause

Jury

Weight and sufficiency of evidence

Factors

Constitutional Law
reasonable doubt

Degree of proof;

Constitutional Law

Sentencing

Jury

Weight and sufficiency of evidence

Jury

Drug offenses
Factors

Drug type and quantity are treated as elements
of the crime under the statute listing penalties
for distributing a controlled substance only
for the constitutional purposes of protecting a
defendant's Sixth and Fifth Amendment rights
to have each element of a crime be proved to
the jury beyond a reasonable doubt. U.S. Const.
Amends. 5, 6; Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 401, 21
U.S.C.A. § 841(b)(1).

Degree of proof;

Jury

Weight and sufficiency of evidence

Sentencing and Punishment
enhancing sentence

1 Cases that cite this headnote

Criminal Law

Jury

The facts of drug type and quantity under
the statute listing penalties for distributing
a controlled substance constitute elements
or ingredients of the crime that must be
proved beyond a reasonable doubt to the jury.
Comprehensive Drug Abuse Prevention and
Control Act of 1970 § 401, 21 U.S.C.A. § 841(b).

Knowledge, intent, and

Constitutional Law
reasonable doubt

Restriction or Invasion of Functions

Sentencing and Punishment
enhancing sentence

Because the government need not prove that
a defendant knew, or had an intent, with
respect to a specific drug type and quantity
in order to secure a conviction for distributing
a controlled substance and statutory penalties,
the government likewise need not prove
such knowledge or intent for purposes of a
conspiracy conviction. Comprehensive Drug
Abuse Prevention and Control Act of 1970 §§
401, 406, 21 U.S.C.A. §§ 841(a), (b)(1), 846.

[17]

Reasonable Doubt

To ensure the right to have each element
of a crime be proved to the jury beyond a
reasonable doubt, it is necessary to make a proper
designation of the facts that are elements of the
crime. U.S. Const. Amends. 5, 6.

For a drug conspiracy offense, the government
need not prove a level of criminal intent
greater than that for the underlying offense.
Comprehensive Drug Abuse Prevention and
Control Act of 1970 § 406, 21 U.S.C.A. § 846.

[16]

Criminal Law

8

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

[26]
[21]

Criminal Law
in General

Construction and Operation

Where Congress includes particular language in
one section of a statute but omits it in another
section of the same act, it is generally presumed
that Congress acts intentionally and purposely in
the disparate inclusion or exclusion.

In determining whether Congress intended a
mens rea requirement in a criminal statute to
apply to noncontiguous words or phrases, courts
use ordinary tools of statutory interpretation.

[22]

Statutes
meaning

[27]

Natural, obvious, or accepted

In statutory interpretation, courts start with the
language of the statute and consider the natural
reading of the language using ordinary English
grammar.

[28]

Statutes
Relative and qualifying terms and
provisions, and their relation to antecedents

Criminal Law

[29]

Acts prohibited by statute

[30]
Criminal Law

Criminal Law

Acts prohibited by statute

Criminal Law

Acts prohibited by statute

Where a criminal statute is entirely silent on
the mens rea required for a criminal offense, a
court deems the presumption of mens rea to be
rebutted only when there is a strong indication
that Congress has created public welfare or
regulatory offenses and imposed a form of strict
criminal liability through statutes that do not
require the defendant to know the facts that make
his conduct illegal.

Courts do not count the number of words
between the mens rea requirement and an
element of the crime to aid its determination as
to whether to apply the mens rea requirement;
rather, a court begins by considering the natural
reading of the statute using ordinary English
grammar, and a grammatical sentence can
nevertheless be quite long.

[25]

Acts prohibited by statute

Where a criminal statute is entirely silent on
the mens rea required for a criminal offense, a
court presumes that Congress did not intend to
dispense with a conventional mens rea element,
which would require that the defendant know the
facts that make his conduct illegal.

The word “knowingly” does not necessarily
apply to every word in a long statutory phrase,
such that questions may reasonably arise about
how far into the statute the modifier extends.

[24]

Criminal Law

Courts presume that Congress intends to require
a defendant to possess a culpable mental state
regarding each of the statutory elements that
criminalize otherwise innocent conduct.

Statutes
Grammar, spelling, and
punctuation

[23]

Statutes
Express mention and implied
exclusion; expressio unius est exclusio alterius

Criminal Law

Acts prohibited by statute

Where a statute includes a mens rea requirement,
a court is not faced with the question whether
Congress intended to dispense with a mens
rea requirement entirely; rather, the court must
determine how far into the statute does the mens
rea modifier extend.

Acts prohibited by statute

Courts consider the surrounding text and
structure to determine whether to apply the
mens rea requirement to noncontiguous words or
phrases of a criminal statute.

9

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

[31]

Criminal Law

[36]

Acts prohibited by statute

The presumption that Congress intended the
defendant to possess a culpable mental state as
to each of the statutory elements that criminalize
otherwise innocent conduct is particularly
appropriate when a different reading would have
the effect of criminalizing a broad range of
apparently innocent conduct.

[32]

Criminal Law

When statutory language is not ambiguous, other
tools of statutory construction are unnecessary.

[37]

[38]

[34]

Constitutional Law
Avoidance of
constitutional questions
Statutes

In general; factors considered

Statutes
ambiguity

Plain, literal, or clear meaning;

When statutory language is ambiguous, a court
determines the meaning of the statutory text
using other tools of statutory construction,
including the rule of lenity, the canon of
constitutional avoidance, and consistency with
legislative history.

[39]

Statutes

Statutes
of lenity

Liberal or strict construction; rule

[40]

Statutes

Prior or existing law in general

Where there is settled precedent on the
interpretation of a statute, courts presume that
when Congress reenacted the same language in
subsequent acts, it adopted the earlier judicial
construction of that phrase.

Superfluousness

Criminal Law

Liberal or strict construction; rule

To invoke the rule of lenity, a court must
conclude that there is a grievous ambiguity or
uncertainty in the statute.

The canon against surplusage is strongest where
an interpretation would render superfluous
another part of the same statutory scheme.

[35]

Statutes
of lenity

The rule of lenity applies only when, after
consulting traditional canons of statutory
construction, a court is left with an ambiguous
statute.

Acts prohibited by statute

Absent statutory language suggesting otherwise,
the scienter presumption does not apply to
elements that do not separate innocent from
wrongful conduct.

[33]

Statutes
Absence of Ambiguity;
Application of Clear or Unambiguous Statute
or Language

Sentencing and Punishment
degree or seriousness of offense

Nature,

Sentencing and Punishment
enhancing sentence

Factors

In order to obtain a particular sentence
under the penalty provisions for distributing
methamphetamine and heroin, the government
must prove beyond a reasonable doubt the
specific type and the quantity of substance
involved in the offense, but not the defendant's
knowledge of, or intent, with respect to that
type and quantity. Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 401, 21
U.S.C.A. § 841(a), (b)(1)(A)(viii), (b)(1)(B)(i).

Criminal Intent and Malice

Once a defendant knowingly or intentionally
violates federal law, it is not unusual to punish
individuals for the unintended consequences of
their unlawful acts; the severity of a penalty need
not be precisely calibrated to the level of mens
rea.

1 Cases that cite this headnote

10

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

[41]

Conspiracy

prove the defendant's knowledge of the drug
type and quantity. Comprehensive Drug Abuse
Prevention and Control Act of 1970 §§ 401, 406,
21 U.S.C.A. §§ 841(b), 846.

Knowledge and Intent

The Supreme Court's framework in United
States v. Feola, 420 U.S. 671, for determining
whether the intent requirement for a conspiracy
count is greater than the intent required for
the underlying substantive offense is generally
applicable, and not limited to facts giving rise to
federal jurisdiction.

[42]

Conspiracy

1 Cases that cite this headnote
[46]

Sentencing and Punishment
or advisory

Knowledge and Intent

[47]

[48]
Conspiracy

Sentencing and Punishment
Operation
and effect of guidelines in general
As a matter of administration and to
secure nationwide consistency, the Sentencing
Guidelines should be the starting point and the
initial benchmark for all sentencing.

Conspiracy
Knowledge and intent as to
combination, agreement, and participation
One may be guilty as a conspirator for acts the
precise details of which one does not know at the
time of the agreement.

[44]

Mandatory

The Sentencing Guidelines provide detailed
advisory guidance to federal judges in
determining the sentencing range for a convicted
defendant.

When determining whether the intent
requirement for a conspiracy count is greater
than the intent required for the underlying
substantive offense, a court first starts by
examining the plain language of the conspiracy
statute.

[43]

Sentencing and Punishment
Operation
and effect of guidelines in general

Knowledge and Intent

Criminal Law
in General

Construction and Operation

Sentencing and Punishment
Operation
and effect of guidelines in general

When determining whether the intent
requirement for a conspiracy count is greater
than the intent required for the underlying
substantive offense, a court considers whether
requiring the same mens rea for conspiracy as
for the underlying offense would fail to serve the
values of protecting society from the dangers of
concerted criminal activity or intervening in a
criminal agreement before the criminal act took
place.

Courts do not defer to the Sentencing Guidelines
when interpreting criminal statutes.

[49]

Criminal Law
in General

Construction and Operation

Sentencing and Punishment
Statute or Regulatory Provision

Effect of

Sentencing and Punishment
Operation
and effect of guidelines in general
[45]

Conspiracy
participation

Knowledge, intent, and

While the relevant sections of the Sentencing
Guidelines guide a court's post-conviction
sentencing determinations, a court may not rely
on them when determining what is required for a
conviction and statutory sentence.

To obtain a conviction and a particular
sentence for conspiracy to distribute controlled
substances, the government must prove only that
the defendant's mental state was the same as if the
defendant had been charged with the underlying
offense, which means the government need not

11

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

[50]

Sentencing and Punishment
foreseeable acts and omissions

Reasonably

Sentencing and Punishment
Proof

Degree of

[54]

An erroneous jury instruction will be deemed
harmless if the reviewing court concludes
beyond a reasonable doubt that the omitted
or misstated element was uncontested and
supported by overwhelming evidence, such that
the jury verdict would have been the same absent
the error.

A preponderance of the evidence must
support the determination that the conduct
of coconspirators falls within the scope of
the jointly undertaken criminal activity, is
committed in furtherance of that criminal
activity, and is reasonably foreseeable in
connection with that criminal activity, in order to
determine a defendant's offense level based on
the coconspirators' conduct. U.S.S.G. § 1B1.3.

[51]

[52]

Criminal Law

Instructions in general

To safeguard a criminal defendant's Sixth
Amendment guarantee to a jury trial, the
reviewing court must conduct a thorough
examination of the record to determine if an
erroneous jury instruction amounted to harmless
error. U.S. Const. Amend. 6.

Attorneys and Law Firms

Conspiracy
Liability for acts of
coconspirators; Pinkerton doctrine

*1314 Benjamin L. Coleman (argued), Coleman & Balogh
LLP, San Diego, California; Timothy A. Scott and Nicolas O.
Jimenez, Scott Trial Lawyers APC, San Diego, California; for
Defendant-Appellant Steven Amador.

Sentencing and Punishment
foreseeable acts and omissions

John C. Lemon, San Diego, California, for DefendantAppellant Julio Rodriguez.

Reasonably

The Pinkerton standard for when a defendant
can be liable for substantive offenses committed
by coconspirators is irrelevant to a defendant's
liability for conspiracy, and to the extent that
applicable Sentencing Guidelines provisions
incorporate Pinkerton they cannot guide the
court's statutory analysis when the defendants are
charged only with conspiracy; overruling United
States v. Becerra, 992 F.2d 960, and United
States v. Banuelos, 322 F.3d 700. U.S.S.G. §
1B1.3.

[53]

[55]

Conspiracy
Liability for acts of
coconspirators; Pinkerton doctrine
Pinkerton limits a defendant's liability
for substantive offenses committed by
coconspirators to include only those acts that
were done in furtherance of the conspiracy, fell
within the scope of the unlawful project, and
were part of the ramifications of the plan which
could be reasonably foreseen as a necessary or
natural consequence of the unlawful agreement.

Elements and incidents of
Criminal Law
offense; definitions

Criminal Law

Instructions in general

A jury instruction misstating the law is subject to
harmless error review.

Martin G. Molina, Law Office of Martin G. Molina, San
Diego, California, for Defendant-Appellant Lino DelgadoVidaca.
Gary P. Burcham, Burcham & Zugman, San Diego,
California, for Defendant-Appellant Robert Collazo.
Victor N. Pippins, Higgs Fletcher & Mack, San Diego,
California, for Defendant-Appellant Isaac Ballesteros.
Daniel E. Zipp (argued), Assistant United States Attorney;
Helen H. Hong, Chief, Appellate Section, Criminal Division;
Robert S. Brewer Jr., United States Attorney; United States
Attorney's Office, San Diego, California; for PlaintiffAppellee.

12

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

Kimberly S. Trimble and Vincent J. Brunkow, Federal
Defenders of San Diego Inc., San Diego, California; Rich
Curtner, Federal Public Defender, Ancorage, Alaska; Michael
Filipovic, Federal Public Defender, Seattle, Washington;
Anthony Gallagher, Federal Defenders of Montana, Great
Falls, Montana; Andrea George, Federal Defenders of Eastern
Washington and Idaho, Spokane, Washington; John T.
Gorman, Office of the Federal Public Defender, Mongmong,
Guam; Lisa Hay, Federal Public Defender, Portland, Oregon;
Steven Kalar, Office of the Federal Public Defender, San
Francisco, California; Amy Karlin, Office of the Federal
Public Defender, Los Angeles, California; Dick Rubin,
Federal Defender Services of Idaho, Boise, Idaho; Jon
Sands, Federal Public Defender, Phoenix, Arizona; Heather
Williams, Office of the Federal Defender, Sacramento,
California; Peter Wolff, Federal Public Defender, Honolulu,
Hawaii; for Amici Curiae Ninth Circuit Federal Public and
Community Defenders.
Jeffrey L. Fisher, O'Melveny & Myers LLP, Menlo Park,
California; Ashley Robertson, O'Melveny & Myers LLP,
Washington, D.C.; for Amicus Curiae National Association
of Criminal Defense Lawyers.
Appeal from the United States District Court for the Southern
District of California, Roger T. Benitez, District Judge,
Presiding, D.C. No. 3:13-cr-04514-BEN-7, D.C. No. 3:13cr-04514-BEN-1, D.C. No. 3:13-cr-04514-BEN-4, D.C. No.
3:13-cr-04514-BEN-2, D.C. No. 3:13-cr-04514-BEN-3
Before: Sidney R. Thomas, Chief Judge, and William A.
Fletcher, Consuelo M. Callahan, Milan D. Smith, Jr., Sandra
S. Ikuta, Jacqueline H. Nguyen, Paul J. Watford, Andrew D.
Hurwitz, Eric D. Miller, Bridget S. Bade and Daniel A. Bress,
Circuit Judges.
*1315 ORDER
The opinion filed on December 2, 2020, appearing at 982 F.3d
596 (9th Cir. 2020), is amended as follows:

<The district court assumed that the defense counsel for each
defendant joined this argument.>.
At page 624, remove footnote 31.
***
Defendants-Appellants' Petition for Rehearing by Full Court
(ECF No. 185) was circulated to the judges of the court, and
no judge requested a vote for full court en banc consideration.
The Petition for Rehearing by Full Court is DENIED.
With this amendment, no further petitions for rehearing or
rehearing en banc may be filed.

Dissent by Judge W. Fletcher
OPINION
IKUTA, Circuit Judge:
Five defendants convicted of conspiracy to distribute
controlled substances under 21 U.S.C. §§ 846 and 841
challenge jury instructions that required the jury to determine
“whether the government proved beyond a reasonable doubt
that the amount of [the specified drug] that was reasonably
foreseeable to [each defendant] or fell within the scope of
his particular agreement equaled or exceeded” a specified
amount. We conclude that this instruction was erroneous.
After a defendant is convicted of conspiracy under § 846 to
distribute controlled substances in violation of § 841(a)(1),
the government may establish that the defendant is subject
to the penalties in § 841(b)(1)(A)(viii) and § 841(b)(1)(B)(i)
by proving beyond a reasonable doubt that the § 841(a)(1)
offense involved the drug type and quantity set forth in the two
penalty provisions. The government is not required to prove
that the defendant knew (or had an intent) with respect to the
drug type and quantity set forth in those penalty provisions in
order for them to apply.

At page 605, footnote 3, replace:
<Defense counsel for each defendant expressly joined this
argument, except Delgado-Vidaca's counsel.>
with

I
Robert Collazo, Lino Delgado-Vidaca, Julio Rodriguez,
Steven Amador, and Isaac Ballesteros are members of the
Mexican Mafia, “the largest prison gang in the United States.”
United States v. Rodriguez, 851 F.3d 931, 936 (9th Cir.
2017). It was “formed in the 1950s by Hispanic street gang

13

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

members” for the purpose of protecting “Hispanics from
other such gangs within California's jails and prisons.” United
States v. Shryock, 342 F.3d 948, 961 (9th Cir. 2003). Over
time, it “gained significant power and control over illegal
activities in the California prison system.” Id. As members
were released from prison, the organization extended its
dominion to certain parts of Southern California. Id. Outside
the prison walls, the Mexican Mafia demands payments
(called “taxes”) from local drug dealers and street gangs in
exchange for allowing them to distribute and sell drugs in its
territory. Rodriguez, 851 F.3d at 936.
*1316 The Mexican Mafia has a hierarchical structure.
United States v. Martinez, 657 F.3d 811, 815 (9th Cir.
2011). At the top of the structure are the “made members”
who are independently responsible for their own territory.
Each made member has a “secretary” who ensures that
the member's decisions are implemented. Further down the
hierarchy are the “meseros” who are responsible for making
tactical decisions, such as when to initiate prison riots, and
for overseeing the organization's criminal activities within
a particular prison yard. The lower level participants are
referred to as “associates.” The primary duty of an associate
is to generate money for the Mexican Mafia through the
distribution and sale of narcotics. Whether narcotics are sold
in prison or on the street, every transaction is conducted
on behalf of the made member who controls the particular
territory.
The five defendants in this appeal worked for Luis “BooBoo” Garcia, a made member of the Mexican Mafia who
is serving a life sentence at Pelican Bay State Prison in
Northern California. Each defendant had a defined role in
the organization. Robert Collazo was in charge of a prison
yard at Donovan Prison, and was responsible for coordinating
narcotics being smuggled into prison on a regular basis:
methamphetamine was smuggled by the ounce (roughly 28
grams), and heroin was smuggled by the piece (roughly
24 grams). Once the narcotics were smuggled into prison,
Collazo worked with various Mexican Mafia members,
including Ballesteros, to transfer those narcotics throughout
the prison. Collazo also sent Garcia $400 every month.
Lino Delgado-Vidaca, a Mexican Mafia member who had
been released from prison, collected taxes from drug dealers
in San Diego and conveyed payments to Garcia through
Garcia's fiancée. Julio Rodriguez was initially incarcerated
at Lancaster State Prison and then transferred to Ironwood
State Prison. He was responsible for smuggling heroin
into both prisons. Rodriguez smuggled heroin in 50-gram

increments; each delivery included one 25-gram bag and
two 12.5-gram bags. Steven Amador, who was incarcerated
at Centinela State Prison, served as Garcia's secretary. His
primary responsibility was collecting rent on behalf of Garcia.
Amador also helped smuggle narcotics into Centinela. Isaac
Ballesteros was incarcerated at Donovan State Prison. As a
mesero, he oversaw distribution and tax collection in one of
the prison yards.
Following a significant investigation by a joint state and
federal gang task force, the defendants were arrested and
charged with two counts of conspiracy. We are concerned only
with the second count: conspiracy to distribute controlled
substances, in violation of 21 U.S.C. §§ 841(a)(1), 841(b)(1)
(A)(viii), 841(b)(1)(B)(i), and 846.1 The indictment did not
charge any defendant with a substantive offense related to this
conspiracy count.
After a ten-day trial, the parties agreed to jury instructions and
verdict forms. For Count 2 (conspiracy to distribute controlled
substances), the jury was instructed as follows:
The defendants are charged in Count 2 of the indictment
with conspiracy to distribute controlled substances in
violation of Section 841(a) and *1317 Section 846 of Title
21 of the United States Code. In order for a defendant to
be found guilty of that charge, the government must prove
each of the following elements beyond a reasonable doubt:
First, beginning on a date unknown and continuing
up to and including March 2013, there was an
agreement between two or more persons to distribute
methamphetamine or heroin; and
Second, the defendant joined in the agreement knowing
of its purpose and intending to help accomplish that
purpose.
If the jury found a defendant guilty of conspiracy to distribute
controlled substances, the jury was instructed to make special
findings regarding drug quantity:

14

If you find a defendant guilty of the charge in Count
2 of the indictment, you are then to determine as to
that defendant whether the government proved beyond a
reasonable doubt that the amount of methamphetamine
that was reasonably foreseeable to him or fell within the
scope of his particular agreement equaled or exceeded
50 grams of actual methamphetamine or 500 grams of a
mixture containing methamphetamine in connection with

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

his criminal activity. Your decision as to weight must be
unanimous.
If you find a defendant guilty of the charge in Count 2 of the
indictment, you are then to determine as to that defendant
whether the government proved beyond a reasonable doubt
that the amount of heroin that was reasonably foreseeable
to him or fell within the scope of his particular agreement
equaled or exceeded 100 grams of heroin in connection
with his criminal activity. Your decision as to weight must
be unanimous.
During deliberation, the jury returned a note asking for
clarification on its duty to make special findings regarding
drug quantity.2 Only then did defense counsel raise his
concern that the jury instructions were not in accordance with
Ninth Circuit precedent. Relying on United States v. Ortiz,
362 F.3d 1274 (9th Cir. 2004), defense counsel argued that the
drug-quantity instruction should be phrased in the conjunctive
(reasonably foreseeable to him and fell within the scope
of his particular agreement), rather than in the disjunctive
(reasonably foreseeable to him or fell within the scope of
his particular agreement).3 After a brief recess, the trial court
ruled that Ortiz was not applicable, because it interpreted
the United States Sentencing Guidelines (the “Guidelines”),
rather than the relevant criminal statutes; therefore, the court
declined to change the jury instructions.
The jury found each defendant guilty of conspiracy to
distribute controlled substances.4 As for the special findings
regarding drug quantity under § 841(b)(1)(A)–(B), the jury
found the requisite methamphetamine amount for Collazo
and Delgado-Vidaca, and the requisite heroin amount for
Amador, Ballesteros, *1318 Collazo, and Rodriguez. Each
defendant timely appealed, raising multiple claims of error,
including a challenge to the jury instructions for Count 2.5
At the suggestion of the three-judge panel initially assigned
the consolidated appeals, we voted to hear the appeals en
banc to clarify our jury instructions for conspiracy under §
846 and the facts that trigger the penalties under § 841(b)
(1)(A)–(B).6 As explained in more detail below, our prior
decisions on this issue relied on the Guidelines' definition of
“relevant conduct,” see U.S.S.G. § 1B1.3 (1991), to determine
a defendant's liability for conspiracy under 21 U.S.C. §
846 and the appropriate penalty under 21 U.S.C. § 841.
See United States v. Torres, 869 F.3d 1089, 1097–98 (9th
Cir. 2017). After the Sentencing Commission revised the

Guidelines' definition of “relevant conduct,” we recognized
it was necessary to resolve en banc how this change affected
our interpretation of § 846 and § 841. Id. We now conclude
that the Guidelines' definition of “relevant conduct” is not
applicable to our interpretation of § 846 or § 841. As a result,
we must overrule our precedent and begin anew to determine
what the government must prove to secure a conviction and
sentence under §§ 846 and 841(b).
[1] We have jurisdiction under 28 U.S.C. § 1291. “We review
de novo whether the jury instructions accurately define the
elements of a statutory offense.” United States v. Hicks, 217
F.3d 1038, 1045 (9th Cir. 2000).

II
In determining whether the jury instructions accurately
defined each element of a § 846 conspiracy to distribute
controlled substances in violation of § 841, we begin by
explaining the legal framework for these offenses.

A
The defendants were charged with conspiracy under 21
U.S.C. § 846, which provides: “Any person who attempts or
conspires to commit any offense defined in this subchapter
shall be subject to the same penalties as those prescribed
for the offense, the commission of which was the object
of the attempt or conspiracy.” The pertinent offense in this
case is set forth in 21 U.S.C. § 841(a)(1), and the penalties
prescribed for this offense are set forth in 21 U.S.C. § 841(b)
(1)(A)–(B). Although the defendants were not charged with
any substantive offenses under § 841(a)(1), this section and §
841(b) are relevant to determining the elements of the § 846
conspiracy convictions here.
[2] In enacting § 846, Congress adopted the common law
understanding of conspiracy. United States v. Shabani, 513
U.S. 10, 13–14, 115 S.Ct. 382, 130 L.Ed.2d 225 (1994).
Therefore, our interpretation of § 846 is guided by wellestablished principles of conspiracy law. See Ocasio v. United
States, ––– U.S. ––––, 136 S. Ct. 1423, 1429, 194 L.Ed.2d 520
(2016) (stating that the general federal conspiracy statute's
“use of the term ‘conspire’ incorporates long-recognized
principles of conspiracy law”).

15

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

all ofthe
the elements of a substantive criminal offense.”). The
[3] [4] [5] [6] [7] [8] [9] [10] [11] [12] First,
Supreme Court has established that “in order to sustain a
essence of conspiracy “is an agreement to commit an unlawful
judgment of conviction on a charge of conspiracy to violate a
act.” *1319 Iannelli v. United States, 420 U.S. 770, 777, 95
federal statute, the Government must prove at least the degree
S.Ct. 1284, 43 L.Ed.2d 616 (1975); see also Ocasio, 136 S. Ct.
of criminal intent necessary for the substantive offense itself.”
at 1429 (“A defendant must merely reach an agreement with
United States v. Feola, 420 U.S. 671, 686, 95 S.Ct. 1255, 43
the specific intent that the underlying crime be committed by
L.Ed.2d 541 (1975).
some member of the conspiracy.” (internal quotation marks
and emphasis omitted)). The agreement itself is the offense,
[14]
[15]
[16] Applying the foregoing framework to §
and it is not necessary for the government to prove that the
846, in order to convict a defendant of conspiracy, the
defendant or other participants committed the unlawful object
government must prove beyond a reasonable doubt that
of the conspiracy.7 See Salinas v. United States, 522 U.S. 52,
(1) the defendant agreed with another person that some
65, 118 S.Ct. 469, 139 L.Ed.2d 352 (1997). The government
member of the conspiracy would commit the relevant
is not required to prove every detail of the agreement. See,
underlying offense (here § 841(a)), and that (2) the defendant
e.g., United States v. Sharif, 817 F.2d 1375, 1378 (9th Cir.
had the requisite intent necessary for a conviction of the
1987) (rejecting the argument that “there can be no conspiracy
without proof of ... such terms as price, quantity, and time,
place, and manner of delivery”). Rather, a fact-finder may
infer the existence and scope of the agreement from the
facts and circumstances established at trial. Iannelli, 420
U.S. at 777 n.10, 95 S.Ct. 1284; United States v. EspinozaValdez, 889 F.3d 654, 656 (9th Cir. 2018). “Once the existence
of the conspiracy is shown, evidence establishing beyond
a reasonable doubt a knowing connection of the defendant
with the conspiracy, even though the connection is slight,
is sufficient to convict him of knowing participation in the
conspiracy.” United States v. Meyers, 847 F.2d 1408, 1413
(9th Cir. 1988). At minimum, the government must “show that
each defendant knew or had a reason to know of the scope of
the conspiracy and that each defendant had reason to believe
that their own benefits were dependent upon the success of the
entire venture.”8 United States v. Lapier, 796 F.3d 1090, 1095
(9th Cir. 2015) (quoting United States v. Kostoff, 585 F.2d
378, 380 (9th Cir. 1978) (per curiam)). When the government
proves that a defendant had a knowing connection with an
extensive enterprise (such as a drug trafficking organization)
and had reason to know of its scope, a fact-finder may infer
that the defendant agreed to the entire unlawful scheme.9 See
United States v. Smith, 609 F.2d 1294, 1300 (9th Cir. 1979);
see also United States v. Tarantino, 846 F.2d 1384, 1393 (D.C.
Cir. 1988) (applying similar principles in a case involving
several defendants who were alleged members of an extensive
drug conspiracy).
[13] Second, the government must prove that the defendant
had the “intent to effectuate the object of the conspiracy.”
*1320 United States v. U.S. Gypsum Co., 438 U.S. 422, 443
n.20, 98 S.Ct. 2864, 57 L.Ed.2d 854 (1978); see also Salinas,
522 U.S. at 65, 118 S.Ct. 469 (“A conspirator must intend
to further an endeavor which, if completed, would satisfy

underlying offense.10 If the government satisfies its burden,
the defendant “shall be subject to the same penalties as those
prescribed for the offense, the commission of which was the
object of the attempt or conspiracy.” 21 U.S.C. § 846.

B
We now turn to the underlying offense at issue here, 21 U.S.C.
§ 841(a)(1), and the penalties prescribed for that offense under
§ 841(b)(1)(A)–(B). In particular, we focus on determining
the requisite intent necessary for a conviction of § 841(a) and
the imposition of the penalties under § 841(b)(A)–(B).

1
Section 841(a)(1) is straightforward. It states, “Except as
authorized by this subchapter, it shall be unlawful for
any person knowingly or intentionally—(1) to manufacture,
distribute, or dispense, or possess with intent to manufacture,
distribute, or dispense, a controlled substance.” The text of the
statute requires the government to prove beyond a reasonable
doubt that the defendant (1) knowingly or intentionally
(2) distributed11 (3) any “controlled substance,” which is
defined as “a drug or other substance, or immediate precursor,
included in” schedules I–V listed in 21 U.S.C. § 812. See
21 U.S.C. § 802(6); see also McFadden v. United States,
576 U.S. 186, 192, 135 S.Ct. 2298, 192 L.Ed.2d 260 (2015)
(holding that as used in § 841(a)(1), the phrase “a controlled
substance” means “some unspecified substance listed on the
federal drug schedules”).

16

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

Section 841(a) does not prescribe any penalties. Instead, “any
person who violates [§ 841(a)] shall be sentenced” pursuant
to § 841(b), which sets out the applicable penalties when
the violation involves specified predicate facts. Two penalty
provisions in § 841(b) are at issue here, one for offenses
involving methamphetamine and one for those involving
heroin. The methamphetamine provision states:
[A]ny person who violates subsection (a) of this section
shall be sentenced as follows:
(1)(A) In the case of a violation of subsection (a) of this
section involving—
*1321 ...
(viii) 50 grams or more of methamphetamine, its salts,
isomers, and salts of its isomers or 500 grams or
more of a mixture or substance containing a detectable
amount of methamphetamine, its salts, isomers, or
salts of its isomers;
such person shall be sentenced to a term of imprisonment
which may not be less than 10 years or more than life and
if death or serious bodily injury results from the use of
such substance shall be not less than 20 years or more than
life, a fine not to exceed the greater of that authorized in
accordance with the provisions of Title 18 or $10,000,000
if the defendant is an individual or $50,000,000 if the
defendant is other than an individual, or both.
21 U.S.C. § 841(b)(1)(A)(viii). The heroin provision has
the same structure, but applies to offenses involving “100
grams or more of a mixture or substance containing a
detectable amount of heroin” and imposes different terms of
imprisonment and fine amounts.12 21 U.S.C. § 841(b)(1)(B)
(i).
Before the Supreme Court's decision in Apprendi v. New
Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435
(2000), a defendant could be sentenced “pursuant to a finding
made by a judge ... under a preponderance of the evidence
standard” because we understood the drug type and quantity
in § 841(b) to be a “sentencing factor, not an element of the
crime.” United States v. Nordby, 225 F.3d 1053, 1058 (9th Cir.
2000), overruled by United States v. Buckland, 289 F.3d 558,
568 (9th Cir. 2002) (en banc); see also Buckland, 289 F.3d at
564 & n.2 (stating that “before Apprendi virtually everyone
routinely treated drug quantity under § 841 as a ‘sentencing
factor’ that need not be found beyond a reasonable doubt by
a properly instructed jury”).

[17] [18] This changed after Apprendi and Alleyne v. United
States, 570 U.S. 99, 133 S.Ct. 2151, 186 L.Ed.2d 314 (2013).
As explained in Alleyne, the Sixth Amendment “provides
that those accused of a crime have the right to a trial by
an impartial jury,” and “[t]his right, in conjunction with the
Due Process Clause, requires that each element of a crime
be proved to the jury beyond a reasonable doubt.” 570 U.S.
at 104, 133 S.Ct. 2151 (cleaned up). To ensure this right, it
is necessary to make a “proper designation of the facts that
are elements of the crime.” Id. at 104–05, 133 S.Ct. 2151.
In this context, Apprendi held that “[o]ther than the fact of
a prior conviction, any fact that increases the penalty for a
crime beyond the prescribed statutory maximum” constitutes
an element of the crime that “must be submitted to a jury,
and proved beyond a reasonable doubt.” 530 U.S. at 490, 120
S.Ct. 2348. Alleyne expanded on Apprendi, and held that any
fact which increases a mandatory minimum also “constitutes
an ‘element’ or ‘ingredient’ of the charged offense” and must
be submitted to the jury. 570 U.S. at 107–08, 133 S.Ct. 2151.
*1322 [19] [20] Under Alleyne's reasoning, the facts of
drug type and quantity under § 841(b) constitute elements
or ingredients of the crime because they affect the penalty
that can be imposed on a defendant. Therefore, “in order to
save [the] statute from unconstitutionality,” we reinterpreted
§ 841 as requiring such facts to be proved beyond a
reasonable doubt to the jury. Buckland, 289 F.3d at 564–68
(citation omitted). As made clear in Apprendi and Alleyne,
however, the purpose of Buckland's requirement is to protect a
defendant's Sixth and Fifth Amendment rights. We treat drug
type and quantity as elements under section 841(b)(1) only
for these constitutional purposes. See United States v. Toliver,
351 F.3d 423, 430 (9th Cir. 2003), abrogated on other grounds
by Blakely v. Washington, 542 U.S. 296, 124 S.Ct. 2531, 159
L.Ed.2d 403 (2004).13
Because Apprendi and Alleyne “did not rewrite § 841(b) to
add a new mens rea requirement,” United States v. Dado,
759 F.3d 550, 570 (6th Cir. 2014), they do not assist us
in determining the requisite mens rea necessary for the
imposition of penalties under § 841(b)(1)(A)–(B), the issue
now before us. Section 841(b)(1), unlike § 841(a), is silent
as to any mens rea requirement. We must therefore determine
whether Congress intended to require proof of a defendant's
mens rea with respect to the requisite drug type and quantity
for the penalties in § 841(b)(1)(A)–(B) to apply. We turn to
that issue next.

17

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

2
Section 841(a) makes it unlawful for anyone to “knowingly or
intentionally” commit the offense of distributing a controlled
substance. We must therefore decide “how far down” the text
of the statute “the word ‘knowingly’ is intended to travel.”
Liparota v. United States, 471 U.S. 419, 424 n.7, 105 S.Ct.
2084, 85 L.Ed.2d 434 (1985) (quoting W. LaFave & A. Scott,
Criminal Law § 27 (1972)).

transpor[t] an individual who has not attained the age of 18
years in interstate or foreign commerce ... with intent that
the individual engage in prostitution,” does not require the
government to prove that the defendant knew the victim's
age).16
[25] [26] The Court also considers the “surrounding text
and structure.” Maracich v. Spears, 570 U.S. 48, 76, 133 S.Ct.
2191, 186 L.Ed.2d 275 (2013). In Dean, for instance, the
Court interpreted 18 U.S.C. § 924(c), which provides:

[A]ny person who, during and in relation to any crime
[21]
[22] In determining whether Congress intended a
of
violence or drug trafficking crime ... uses or carries
mens rea requirement in a criminal statute to apply to
a firearm, or who, in furtherance of any such crime,
noncontiguous words or phrases, the Supreme Court uses
possesses a firearm, shall, in addition to the punishment
ordinary tools of statutory interpretation. The Court starts “as
provided for such crime of violence or drug trafficking
always, with the language of the statute,” Dean v. United
crime—
States, 556 U.S. 568, 572, 129 S.Ct. 1849, 173 L.Ed.2d
785 (2009) (quoting Williams v. Taylor, 529 U.S. 420, 431,
(i) be sentenced to a term of imprisonment of not less
120 S.Ct. 1479, 146 L.Ed.2d 435 (2000)), and considers
than 5 years;
the natural reading of the language using “ordinary English
grammar,” Flores-Figueroa v. United States, 556 U.S. 646,
(ii) if the firearm is brandished, be sentenced to a term
650, 129 S.Ct. 1886, 173 L.Ed.2d 853 (2009). In Floresof imprisonment of not less than 7 years; and
Figueroa, for instance, the Court considered the language
(iii) if the firearm is discharged, be sentenced to a term
in 18 U.S.C. § 1028A(a)(1)—which punishes “[w]hoever ...
of imprisonment of not less than 10 years.
knowingly ... uses ... a means of identification of another
556 U.S. at 571, 129 S.Ct. 1849 (quoting 18 U.S.C. § 924(c)
person”—to determine whether “knowingly” applied to
14
(1)(A)) (emphasis added). The Court held that there is no
“means of identification of another person.” *1323 556
intent requirement with respect to subsection (iii). Id. at 572–
U.S. at 650, 129 S.Ct. 1886. The Court held it did. Id. at
73, 129 S.Ct. 1849. Although *1324 “Congress expressly
657, 129 S.Ct. 1886. The statute's adverb (“knowingly”)
included an intent requirement for [subsection (ii) ]” by
was placed before a transitive verb (“uses”) that has an
defining “brandish” in 18 U.S.C. § 924(c)(4) to mean “to
object (“a means of identification of another person”). Id.
display all or part of the firearm ... in order to intimidate
at 650–51, 129 S.Ct. 1886. Accordingly, it was “natural to
that person,” it did not define “discharge” to include such
read” this statutory language as establishing “how the subject
an intent requirement. Id. (emphasis omitted). “[W]here
performed the entire action, including the object as set forth
Congress includes particular language in one section of a
in the sentence.” Id.; see also Rehaif v. United States, –––
statute but omits it in another section of the same Act, it
U.S. ––––, 139 S. Ct. 2191, 2195, 204 L.Ed.2d 594 (2019)
is generally presumed that Congress acts intentionally and
(holding that the term “knowingly” in § 924(a)(2)—which
purposely in the disparate inclusion or exclusion.” Id. at 573,
imposes penalties on a person who “knowingly violates”
129
S.Ct. 1849 (quoting Russello v. United States, 464 U.S.
certain subsections—“modifies the verb ‘violates’ and its
16, 23, 104 S.Ct. 296, 78 L.Ed.2d 17 (1983)).
direct object,” including a separate, cross-referenced statutory
provision, 18 U.S.C. § 922(g)).15

[27] [28] [29] [30] In addition to considering the text and
structure of the statute, the Court recognizes the presumption,
[23] [24] This rule is not rigid: the word “knowingly” does
traceable to the common law, that “Congress intends to
not necessarily apply to every word in “a long statutory
require a defendant to possess a culpable mental state
phrase, such that questions may reasonably arise about how
regarding each of the statutory elements that criminalize
far into the statute the modifier extends.” Rehaif, 139 S. Ct.
otherwise innocent conduct.” Rehaif, 139 S. Ct. at 2195
at 2196; see also United States v. Taylor, 239 F.3d 994, 997
(citation omitted). In applying this background principle, the
(9th Cir. 2001) (holding that the word “knowingly” in 18
Court has differentiated between statutes that are silent on
U.S.C. § 2423(a), which makes it unlawful to “knowingly

18

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

mens rea, and those that include a mens rea requirement.
Where a criminal statute is entirely silent on the mens rea
required for a criminal offense, the Court presumes that
Congress did not intend to “dispense with a conventional
mens rea element, which would require that the defendant
know the facts that make his conduct illegal.” Staples v.
United States, 511 U.S. 600, 605, 114 S.Ct. 1793, 128 L.Ed.2d
608 (1994). In such cases, the Court deems the presumption of
mens rea to be rebutted only when there is a strong indication
that Congress has created “ ‘public welfare’ or ‘regulatory’
offenses” and imposed “a form of strict criminal liability
through statutes that do not require the defendant to know
the facts that make his conduct illegal.” Id. at 606, 114 S.Ct.
1793. Where a statute includes a mens rea requirement, such
as § 841, we are not faced with the question whether Congress
intended to dispense with a mens rea requirement entirely, as
in Staples; rather, we must determine “how far into the statute
[does § 841(a)'s “knowingly”] modifier extend[ ].” Rehaif,
139 S. Ct. at 2196.17
[31] The presumption that Congress intended the defendant
to possess a culpable mental state as to “each of the statutory
elements that criminalize otherwise innocent conduct,” id.
at 2195 (quoting United States v. X-Citement Video, Inc.,
513 U.S. 64, 72, 115 S.Ct. 464, 130 L.Ed.2d 372 (1994)),
is particularly appropriate when a different reading would
have the effect of criminalizing “a broad range of apparently
innocent conduct,” X-Citement Video, 513 U.S. at 71, 115
S.Ct. 464 (citation omitted). Thus, in X-Citement Video, the
Court concluded that the word “knowingly” in “knowingly
transports ... any visual depiction, if ... such visual depiction
involves the use of a minor,” 18 U.S.C. § 2252(a), also
applied to the phrase “involves the use of a minor” because
“the age of the performers is the crucial element separating
legal innocence from wrongful conduct.” 513 U.S. at 73, 115
S.Ct. 464. Similarly, in Rehaif, the Court held that the word
“knowingly” in the phrase whoever “knowingly violates” §
922(g), which prohibits persons with certain statuses from
possessing firearms, applied to the status element in § 922(g)
because this reading “helps advance the purpose of scienter,
for it helps to separate wrongful from innocent acts.” 139 S.
Ct. at 2196–97. The Court reasoned that “the possession of a
gun can be entirely innocent,” and only the defendant's status
*1325 distinguished an innocent act from a wrongful one
under the statute. Id. at 2197.
[32] By contrast, absent statutory language suggesting
otherwise, the scienter presumption does not apply to
elements that do not separate innocent from wrongful

conduct. See id. at 2196 (holding that because “jurisdictional
elements normally have nothing to do with the wrongfulness
of the defendant's conduct, such elements are not subject
to the presumption in favor of scienter”). Thus, the Court
declined to apply this presumption in Dean because a
defendant found guilty of violating 18 U.S.C. § 924(c) “is
already guilty of unlawful conduct twice over: a violent or
drug trafficking offense and the use, carrying, or possession of
a firearm in the course of that offense,” and the finding that the
firearm is discharged (which is required under § 924(c)(1)(A)
(iii) in order to impose a ten-year sentence) merely enhances
the consequences for such unlawful acts. 556 U.S. at 576, 129
S.Ct. 1849; see also United States v. Crowder, 656 F.3d 870,
875 (9th Cir. 2011) (holding that the word “knowingly” in the
Sex Offender Registration and Notification Act (SORNA),
18 U.S.C. § 2250(a)—which imposes criminal penalties on
any person who “knowingly fails to register or update a
registration as required by [SORNA]”—does not apply to the
phrase “as required by [SORNA]” because a defendant would
know failing to register was “not an innocent act”).
[33] When the statutory language is ambiguous, the Court
determines the meaning of the statutory text using other
tools of statutory construction, including the rule of lenity,
the canon of constitutional avoidance, and consistency with
legislative history. Thus, in X-Citement Video, the Court
noted that eliminating a scienter requirement as to the age of
the performers in a video involving sexual conduct “would
raise serious constitutional doubts” given that “nonobscene,
sexually explicit materials involving persons over the age
of 17 are protected by the First Amendment,” and it was
“incumbent upon [the Court] to read the statute to eliminate
those doubts so long as such a reading is not plainly contrary
to the intent of Congress.” 513 U.S. at 72, 78, 115 S.Ct.
464. In cases of “grievous ambiguity or uncertainty in the
statute,” Dean, 556 U.S. at 577, 129 S.Ct. 1849 (quoting
Muscarello v. United States, 524 U.S. 125, 138–39, 118
S.Ct. 1911, 141 L.Ed.2d 111 (1998)), the Court has also
applied the “longstanding recognition of the principle that
ambiguity concerning the ambit of criminal statutes should
be resolved in favor of lenity,” Liparota, 471 U.S. at 427,
105 S.Ct. 2084 (citation omitted). Finally, the Court has
considered legislative history but has generally given it little
weight. See, e.g., Liparota, 471 U.S. at 430 n.13, 105 S.Ct.
2084 (rejecting the government's argument that the legislative
history supports its position); Rehaif, 139 S. Ct. at 2199
(rejecting the government's legislative history argument given
that the history was “at best inconclusive”).

19

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

3
We now apply these principles to § 841 to determine whether
the phrase “knowingly” in § 841(a) applies to the drug type
and quantity set forth in § 841(b)(1).
Section 841(a)(1) makes it unlawful for “any person
knowingly or intentionally” to distribute “a controlled
substance,” which is an “unspecified substance listed on
the federal drug schedules.” McFadden, 576 U.S. at 192,
135 S.Ct. 2298. Section 841(b)(1)(A)–(B) provide for the
penalties to be imposed in the case of a § 841(a)(1) violation
“involving” certain types and quantities of drugs. Unlike §
841(a), *1326 § 841(b)(1) is silent as to any mens rea
requirement.
“As a matter of ordinary English grammar,” it is natural to
read the intent requirement of “knowingly or intentionally”
as modifying only the elements contained in the statutory
phrase defining the § 841(a)(1) offense, i.e., “distribute” and
“a controlled substance.” See Flores-Figueroa, 556 U.S. at
650, 129 S.Ct. 1886. Section 841(b) is not the object of the
verbs in § 841(a)(1). Compare 21 U.S.C. § 841, with Rehaif,
139 S. Ct. at 2195 (relying on the fact that, in § 924(a)(2),
the adverb “knowingly” modifies the verb “violates” and its
direct object, § 922(g)). There is no natural or ordinary way
to read the intent requirement in § 841(a)(1) as modifying the
drug types and quantities in § 841(b).
[34] While we begin by considering the natural reading of
the language, see Flores-Figueroa, 556 U.S. at 650, 129
S.Ct. 1886, we do not end there. We next turn to the
structure and context of the statute. See Dean, 556 U.S. at
572, 129 S.Ct. 1849. As in Dean, the structure of § 841(b)
suggests that § 841(b)(1)(A)(viii) and § 841(b)(1)(B)(i) do
not require proof that the defendant knew about the drug type
and quantity. In § 841(b)(6), another provision in the same
statute, Congress expressly provided that those who violate
§ 841(a) and “knowingly or intentionally use a poison ... on
Federal land,” thus causing specified harms, are subject to
certain penalties.18 21 U.S.C. § 841(b)(6) (emphasis added).
This language shows that Congress knew how to require
proof of mens rea with respect to the predicate facts for
sentences under § 841(b), and chose not to do so in § 841(b)
(1)(A)–(B). “Where Congress includes particular language
in one section of a statute but omits it in another section
of the same Act, it is generally presumed that Congress
acts intentionally and purposely in the disparate inclusion or

exclusion.” Dean, 556 U.S. at 573, 129 S.Ct. 1849 (alteration
adopted and quotation omitted). Moreover, if we were to
interpret the intent requirement in § 841(a) as modifying
the numerous sentencing facts included under § 841(b), the
intent requirement in § 841(b)(6) would be surplusage. The
“canon against surplusage is strongest” where, as here, “an
interpretation would render superfluous another part of the
same statutory scheme.” Marx v. Gen. Revenue Corp., 568
U.S. 371, 386, 133 S.Ct. 1166, 185 L.Ed.2d 242 (2013).
Because this redundancy fatally undermines the dissent's
position, the dissent attempts to distinguish § 841(b)(6) from
§ 841(b)(1). According to the dissent, while the mens rea
requirement in § 841(a) travels to the various subsections of
§ 841(b)(1), it does not travel to § 841(b)(6) because this
subsection specifies a “separate criminal act” of “us[ing] a
poison, chemical, or other hazardous substance on Federal
land.” Dissent at –––– – ––––. And because the traveling
mens rea requirement in § 841(a) cannot reach this “separate
criminal act,” the dissent contends, Congress had to add an
additional mens rea requirement to § 841(b)(6). Id.
This argument has no support in grammar or caselaw. The
structure of *1327 § 841(b)(1) and § 841(b)(6) is similar;
both apply to “any person who violates subsection (a),”
and list certain predicate facts that subject such person to
specified penalties.19 As we have explained, there is no
natural or grammatical way to read the mens rea in § 841(a)
(1) as applying to the predicate facts in § 841(b)(1). Not
surprisingly, it is equally unnatural and ungrammatical to
read the mens rea in § 841(a)(1) to apply to the predicate
facts in § 841(b)(6). The dissent fails to explain why it is
more unnatural and ungrammatical to apply § 841(a)'s mens
rea requirement to § 841(b)(6) than to § 841(b)(1), such
that the mens rea travels to § 841(b)(1) but not § 841(b)
(6). Nor has the dissent explained why it makes a difference
that the conduct described in § 841(b)(6) (poisoning federal
lands) could constitute a separate criminal act prosecutable
under some other statute. Neither the Supreme Court nor
we have endorsed any background principle that mens rea
requirements are less likely to travel to predicate facts that can
be prosecuted separately under other federal laws.
The presumption that Congress did not want to “criminalize
a broad range of apparently innocent conduct,” X-Citement
Video, 513 U.S. at 71, 115 S.Ct. 464 (cleaned up), and
the importance of scienter “in separating wrongful from
innocent acts,” Rehaif, 139 S. Ct. at 2196, do not undercut our
reading of the statutory text here.20 Knowingly distributing

20

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

a controlled substance in violation of § 841(a)(1) is not an
“entirely innocent” act. Rehaif, 139 S. Ct. at 2197. Regardless
of the type and quantity of the controlled substance, there
is no risk that a defendant would fail to understand the
unlawful nature of the act. Our precedent is in accord; we
have long recognized the basic rule that a defendant charged
with a controlled substance offense “need not know the
exact nature of the substance with which he was dealing,”
but “can be convicted under § 841 ... if he believes he
has some controlled substance in his possession.” United
States v. Ramirez-Ramirez, 875 F.2d 772, 774 (9th Cir. 1989)
(quotation omitted) (collecting cases).
[35] Nor does the structure of § 841(a) and (b), providing
different penalties for different drug types and quantities,
raise an inference that some scienter is necessary. See Dean,
556 U.S. at 573, 129 S.Ct. 1849. Where a criminal statute
does not provide a scienter requirement, the Court has held
the imposition of harsh penalties on defendants who were
unaware they were violating the law supports the inference
that Congress did not intend to create a strict liability
public welfare offense. Staples, 511 U.S. at 618, 114 S.Ct.
1793. Such a concern is not implicated in § 841, under
which the defendant must be found guilty of knowingly
or intentionally distributing controlled substances. Once a
defendant knowingly or intentionally violates federal law,
“it is not unusual to punish individuals for the unintended
consequences *1328 of their unlawful acts.” Dean, 556 U.S.
at 575, 129 S.Ct. 1849 (emphasis in original). The severity
of a penalty need not be “precisely calibrated to the level of
mens rea.” Burwell, 690 F.3d at 510 (citing Dean, 556 U.S.
at 575, 129 S.Ct. 1849).

defendants' “contrary arguments are not enough to render the
statute grievously ambiguous.” Id.
Nor does the canon of constitutional avoidance require us to
interpret § 841 as imposing a mens rea requirement for the
drug type and quantity in order to avoid conflicting with the
Due Process Clause and the Sixth Amendment. Congress's
decision not to impose a mens rea requirement is consistent
with the Due Process Clause. That “the government must
prove that the defendant knew he was importing some amount
of a controlled substance ... is sufficient to ensure the statute
penalizes only culpable conduct.” United States v. Jefferson,
791 F.3d 1013, 1018 (9th Cir. 2015). Similarly, the Sixth
Amendment is not implicated, because the government is
required to prove drug type and quantity to the jury beyond
a reasonable doubt. See Buckland, 289 F.3d at 568. Apprendi
and Alleyne do not affect the question whether the word
“knowingly” applies to the drug types and quantities set out
in § 841(b). The dissent's argument to the contrary, Dissent
at ––––, “confuses the requisite burden of proof with the
mens rea standard.” Jefferson, 791 F.3d at 1017 (citing Dado,
759 F.3d at 570). We comply with the constitutional mandate
announced in Apprendi and Alleyne by requiring drug type
and quantity under § 841(b) to be found by a jury beyond a
reasonable doubt. See Buckland, 289 F.3d at 568.

[39] Nor is recourse to legislative history necessary here.
Where there is settled precedent on the interpretation of a
statute, “we presume that when Congress reenacted the same
language” in subsequent acts, “it adopted the earlier judicial
construction of that phrase.” Helsinn Healthcare S.A. v. Teva
Pharm. USA, Inc., ––– U.S. ––––, 139 S. Ct. 628, 633–
34, 202 L.Ed.2d 551 (2019). The judicial consensus that the
[36]
[37]
[38] Because the statutory language is not government need not prove that the defendant “knowingly or
ambiguous, the other tools of statutory construction are
intentionally” distributed a particular drug type and quantity
unnecessary here. In any event, they do not conflict with
has long been settled, see infra at –––– – –––– & n.21, and was
our conclusion. First, defendants claim that the rule of lenity
not affected by the decisions in Apprendi or Alleyne. Indeed,
supports imposing mens rea requirements for the drug types
Congress has amended § 841 six times since Apprendi was
and quantities in § 841(b). We disagree. The rule of lenity
decided (once since Alleyne), without altering the statutory
“applies only when, after consulting traditional canons of
framework. Cf. Rehaif, 139 S. Ct. at 2199 (there had been
statutory construction, we are left with an ambiguous statute.”
“no definitive judicial consensus” as to whether a defendant's
Shular v. United States, ––– U.S. ––––, 140 S. Ct. 779, 787,
knowledge of his status was required under § 922(g), and
206 L.Ed.2d 81 (2020) (quotation omitted). “To invoke the
Congress responded to the open question by amending the
rule, we must conclude that there is a grievous ambiguity or
statute to include such an intent requirement). Accordingly,
uncertainty in the statute.” Dean, 556 U.S. at 577, 129 S.Ct.
the structure of § 841(a)–(b) compels the conclusion that
1849 (citing Muscarello, 524 U.S. at 138–39, 118 S.Ct. 1911).
Congress did not intend to require the government to prove a
Given the statutory text and structure of § 841(b), it is clear
defendant's knowledge *1329 with respect to the drug type
the provision does not contain an intent requirement and the
or quantity.

21

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

Our analysis is consistent with our prior opinions, which
concluded that no intent requirement applies to drug types
and quantities under § 841. See United States v. Soto-Zuniga,
837 F.3d 992, 1005 (9th Cir. 2016); see also Jefferson, 791
F.3d at 1015. In Jefferson, on which Soto-Zuniga relied,
we interpreted 21 U.S.C. § 960(a) and (b), which are
substantially identical to § 841(a) and (b), and concluded that
the government did not have “to prove that the defendant
knew the type or quantity of the controlled substance he
imported to obtain a conviction under § 960(a), or for the
penalties under § 960(b) to apply.” 791 F.3d at 1015 (citations
omitted). We subsequently confirmed that this interpretation
applies to § 841(a) and (b). See Soto-Zuniga, 837 F.3d at 1005.
In reaching this conclusion, we joined every other circuit to
consider this issue; all have held that § 841(b)(1) does not
require a finding of a defendant's mens rea with respect to the
drug type and quantity.21
[40] In sum, we conclude that in order to obtain a particular
sentence under § 841(b)(1)(A)(viii) and § 841(b)(1)(B)(i) for
a violation of § 841(a), the government must prove beyond
a reasonable doubt the specific type and the quantity of
substance involved in the offense, but not the defendant's
knowledge of (or intent) with respect to that type and quantity.

III
We have established in Section II.A, supra, that to convict
the defendants of conspiracy under § 846 in this case, the
government must prove beyond a reasonable doubt that each
defendant agreed with another person that some member
of the conspiracy would commit a § 841(a) offense, and
that each defendant had the requisite intent necessary for
a § 841(a) conviction. We have also established in Section
II.B, supra, that the requisite intent necessary for a § 841(a)
conviction (and for the imposition of the penalties specified
in § 841(b)(1)(A)–(B)) does not include knowledge of the
relevant drug type or quantity. This concludes our explication
of the elements of a § 846 conspiracy to commit a violation
of § 841(a), and the imposition of penalties under § 841(b)
(1). We now turn to defendants' further arguments, and clarify
that a conviction under § 846 does not require proof of a level
of criminal intent greater than that required for the underlying
offense merely because it is a conspiracy conviction.

A

The Supreme Court addressed the question whether a
conspiracy conviction required a heightened mens rea in
Feola. In that case, a defendant had been charged with
conspiracy (under the general federal conspiracy statute, 18
U.S.C. § 371) to assault a federal official in violation of
18 U.S.C. § 111(a)(1). See Feola, 420 U.S. at 672–73, 95
S.Ct. 1255. The Court first determined that the underlying
substantive offense did not require proof that the defendant
*1330 intended “to assault a federal officer,” rather, the
government had to prove only that the defendant intended
to assault someone. Id. at 684, 95 S.Ct. 1255. The Court
then considered “whether the rule should be different where
persons conspire to commit” such an assault, id. at 686,
95 S.Ct. 1255, and concluded that it should not, see id. at
686–96, 95 S.Ct. 1255. In so holding, the Court stated the
general rule “that where knowledge of the facts giving rise
to federal jurisdiction is not necessary for conviction of a
substantive offense embodying a mens rea requirement, such
knowledge is equally irrelevant to questions of responsibility
for conspiracy to commit that offense.” Id. at 696, 95 S.Ct.
1255.
In reaching this conclusion, Feola first considered whether
the text of the conspiracy statute required proof of a greater
intent than the intent required for the underlying offense. It
concluded that § 371 (the conspiracy statute at issue) “offers
no textual support for the proposition that” a defendant who
agreed to assault an individual must have knowledge as to the
employment status of the victim. Id. at 687, 95 S.Ct. 1255.
Second, Feola concluded that “it is clear that one may be
guilty as a conspirator for acts the precise details of which
one does not know at the time of the agreement.” Id. at
692, 95 S.Ct. 1255; see also id. at 694, 95 S.Ct. 1255
(explaining the common law principle that “conspiracy is
an inchoate crime,” which means that the agreement is,
by definition, undeveloped). Feola therefore rejected the
defendant's argument “that it is improper to find conspiratorial
liability where the parties to the illicit agreement were not
aware of” all the elements of the underlying offense “because
the essence of conspiracy is agreement and persons cannot be
punished for acts beyond the scope of their agreement.” 420
U.S. at 692, 95 S.Ct. 1255.
Third, Feola established the general principle that where
an element of the underlying substantive offense does not
include an intent requirement, the same will be true for
a conspiracy to commit that offense, “unless one of the
policies behind the imposition of conspiratorial liability is

22

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

not served” by having the same intent. Id. at 693, 95 S.Ct.
1255. According to the Court, the “two independent values
served by the law of conspiracy” are: (1) “protection of
society from the dangers of concerted criminal activity;”
and (2) “intervention of the criminal law” at a “point in
the continuum between preparation and consummation” of a
criminal act when “the likelihood of a commission of an act
is sufficiently great and the criminal intent sufficiently well
formed.” Id. at 693–94, 95 S.Ct. 1255. When applying this
principle, the central question is whether the act of agreeing
with another person that some member of the conspiracy will
commit a crime is as blameworthy and dangerous to society
as the act of the lone criminal who actually commits that
same crime. If the agreement and the commission are equally
opprobrious, the conspirator and the person who commits the
act should be held to the same standard, at least with respect
to intent. See id. In the federal assault statute at issue in Feola,
knowledge of the victim's identity was not necessary for
conviction of the substantive offense, and thus was “equally
irrelevant to questions of responsibility for conspiracy to
commit that offense.” Id. at 696, 95 S.Ct. 1255. Therefore,
“its imposition ... would serve only to make it more difficult
to obtain convictions on charges of conspiracy, a policy with
no apparent purpose.” Id. at 694, 95 S.Ct. 1255.
[41] Although Feola stated its specific holding in terms of
“facts giving rise to *1331 federal jurisdiction,” id. at 696,
95 S.Ct. 1255, its framework for determining whether the
intent requirement for a conspiracy count is “greater than”
the intent required for the underlying substantive offense, id.
at 686, 95 S.Ct. 1255, is generally applicable. First, Feola
did not limit its analysis to jurisdictional facts it deemed
extraneous to “the offense Congress intended to describe and
to punish.” Id. at 676 n.9, 95 S.Ct. 1255. To the contrary, Feola
stated that labeling a requirement as “jurisdictional” does not
mean the requirement “is viewed as outside the scope of the
evil Congress intended to forestall.” Id. In the case before it,
Feola deemed the status of the victim as a federal agent to
be a significant component of the assault offense under § 111
because Congress sought “to protect the integrity of federal
functions and the safety of federal officers.” Id. Given that the
element of the assault offense regarding the victim's status is
not merely jurisdictional, Feola's analysis readily applies to
other elements of an offense.
Second, we have previously reached the conclusion that “the
rule of Feola” is a general one that requires “the same
degree of intent for the conspiracy charge as is required by
the underlying statute.” United States v. Thomas, 887 F.2d

1341, 1347 (9th Cir. 1989); see United States v. Hubbard,
96 F.3d 1223, 1229 (9th Cir. 1996) (citing Feola, 420 U.S.
at 696, 95 S.Ct. 1255) (holding that “a federal conspiracy
conviction does not require a greater level of criminal intent
than a conviction on the substantive count”). We have applied
this general rule to contexts involving facts that were not
jurisdictional. For instance, we held that when a person
was charged with conspiracy to receive stolen explosives,
the government did not have to prove the person knew the
dynamite was stolen, but only that the person had “reasonable
cause to believe” that fact, which was the same degree of
scienter required by the underlying offense. United States v.
Karr, 742 F.2d 493, 497 (9th Cir. 1984); see also Thomas,
887 F.2d at 1347 (explaining the ruling in Karr). Similarly,
in United States v. Baker, we held that if a conviction of a
violation of a federal statute does not require proof of an intent
to violate that law, “neither does a conviction for conspiring
to engage in activities which violate” that law. 63 F.3d 1478,
1493 (9th Cir. 1995).22

B
[42] We apply Feola's general rule here. Adhering to Feola's
analytical framework, we first start by examining the plain
language of the conspiracy statute, 21 U.S.C. § 846. Like the
general conspiracy statute, § 846 “offers no textual support”
for the proposition that a defendant must possess a degree
of intent as to the type and quantity of drug involved in the
underlying offense.23 Rather, § 846's requirement *1332
that a conspirator “shall be subject to the same penalties as
those prescribed for the [underlying] offense” indicates that
the penalties for a § 846 offense must be “the same” as the
penalties for the underlying offense, which also suggests that
the facts triggering those penalties must be “the same.” This
undercuts the argument that Congress intended to require the
government to prove a different (and heightened) mens rea in
the conspiracy context.
[43] Second, because “it is clear that one may be guilty as
a conspirator for acts the precise details of which one does
not know at the time of the agreement,” Feola, 420 U.S. at
692, 95 S.Ct. 1255, the fact that a defendant (who has been
convicted of conspiracy under § 846 for an agreement to
violate § 841(a)) may not have known about certain details
regarding drug type and quantity does not preclude subjecting
that defendant to a statutory penalty based on those unknown
details. Therefore, we reject the defendants' argument that
conspirators who agree to distribute controlled substances

23

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

cannot be punished unless they knew the specific drug type
and amount to be distributed.
Defendants argue that the Supreme Court revived this
argument in Ocasio by referencing the “long-recognized
principle[ ] of conspiracy law” that “the fundamental
characteristic of a conspiracy is a joint commitment to an
‘endeavor which, if completed, would satisfy all of the
elements of the underlying substantive criminal offense.’ ”
136 S. Ct. at 1429 (alteration adopted) (quoting Salinas,
522 U.S. at 65, 118 S.Ct. 469). We disagree. Ocasio did
not consider the specific question raised in Feola, let alone
overrule Feola's general rule. In fact, Ocasio never cited
Feola. Because Ocasio merely recites a general common law
principle without discussing how it applies in the context of
determining a conspirator's intent, we are bound by Feola's
specific direction.24
[44] Last, as indicated in Feola, we consider whether
requiring the same mens rea for a § 846 conspiracy as for
the underlying offense would fail to serve the values of
protecting society from “the dangers of concerted criminal
activity” or intervening in a criminal agreement before the
criminal act took place. Feola, 420 U.S. at 693, 95 S.Ct.
1255. As the Court held in Feola, we conclude that the
offense of conspiracy to distribute a controlled substance is
as “opprobrious” and dangerous to society as the act of the
individual drug dealer who actually distributes the controlled
substance. Id. Because the acts are equally blameworthy, and
the person who commits the underlying act need not know
drug type and quantity, that knowledge “is *1333 equally
irrelevant to questions of responsibility for conspiracy to
commit that offense.” Id. at 696, 95 S.Ct. 1255. Moreover, as
was the case in Feola, the imposition of an additional burden
on the government to prove the conspirator's knowledge of
drug type and quantity “would serve only to make it more
difficult to obtain convictions on charges of conspiracy, a
policy with no apparent purpose.” Id. at 694, 95 S.Ct. 1255.
[45] Accordingly, we conclude that to obtain a conviction
and a particular sentence for conspiracy to distribute
controlled substances under § 846, the government must
prove only that the defendant's mental state was the same as if
the defendant had been charged with the underlying offense.
Applying that principle here, the government need not prove
the defendant's knowledge of the drug type and quantity under
§ 841(b).

IV
While our conclusion is grounded in the text of the statute
and principles of conspiracy law, it is markedly different
from how we have previously characterized the framework
for determining drug type and quantity when a defendant is
charged under § 846 or § 841.25 We briefly explain why our
prior approach, which heavily relied on the formulation in the
Guidelines, was mistaken.
[46]
[47]
[48]
[49] The Guidelines provides detailed
advisory guidance to federal judges in determining the
sentencing range for a convicted defendant. “As a matter
of administration and to secure nationwide consistency,
the Guidelines should be the starting point and the initial
benchmark” for all sentencing. Gall v. United States, 552 U.S.
38, 49, 128 S.Ct. 586, 169 L.Ed.2d 445 (2007). But we do not
defer to the Guidelines when interpreting criminal statutes.
See United States v. Morales, 590 F.3d 1049, 1052 (9th Cir.
2010) (“Of course, the [Sentencing] Commission can't tell
federal courts how to interpret statutes.”). Therefore, while
the relevant sections of the Guidelines guide a court's postconviction sentencing determinations, we may not rely on
them when determining what is required for a conviction and
statutory sentence.
Under the Guidelines, after a defendant has been convicted
for violating § 846 or § 841, a district court must refer to
Chapter Two, Part D of the Guidelines, “Offenses involving
Drugs.” See U.S.S.G. § 2D (2018). For a drug trafficking
offense, including conspiracy to commit such an offense,
the Guidelines specifies more than one base offense level
(depending on drug type and quantity, among other things)
and identifies several specific offense characteristics that can
affect the offense level.26 See U.S.S.G. § 2D1.1 (2018).
To determine the appropriate offense level for any given
defendant, the Guidelines directs courts to consider certain
“relevant conduct.” See U.S.S.G. §§ 1B1.2(b) & 1B1.3
(2018). The Guidelines defines the term “relevant conduct”
to mean:

24

in the case of a jointly undertaken criminal activity (a
criminal plan, scheme, endeavor, or enterprise undertaken
by the defendant in concert with others, whether or not
charged as a conspiracy), all acts and omissions of others
that were—

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

year sentences on two defendants who had been part of a
conspiracy to sell narcotics. See 992 F.2d 960, 966 (9th Cir.
1993). The defendants argued that the sentence was erroneous
because the transaction, which had involved 25 kilograms of
(ii) in furtherance of that criminal activity, and
cocaine, was neither reasonably foreseeable nor within the
scope of the conspiracy. Id. Relying on the 1991 version of
(iii) reasonably foreseeable in connection with that
the Guidelines, which provided that “each conspirator may be
criminal activity;
sentenced only for the quantity of drugs that he reasonably
that occurred during the commission of the offense of
foresaw *1335 would be distributed or that fell within
conviction, in preparation for that offense, or in the course
the scope of his own agreement with his co-conspirators,”
of attempting to avoid detection or responsibility for that
Becerra upheld one defendant's sentence and reversed the
offense.
other's. Id. at 966–67. Becerra noted, in a footnote, that
27
this mandatory standard would apply with equal force to 21
U.S.S.G. § 1B1.3(a)(1)(B) (2018). Although § 1B1.3(a)
U.S.C. § 841(b). See id. at 967 n.2 (“We see no reason why
limits a defendant's accountability for sentencing purposes,
sentencing under the statutory mandatory minimums should
the application notes to § 1B1.3 acknowledge that the
differ [from sentencing under the Guidelines, because the
Guidelines does not purport to establish standards of criminal
statutory minimums] are, in essence, part of the Guidelines
liability. See U.S.S.G. § 1B1.3, cmt. n.1 (2018).
scheme.”). Following Becerra, we interpreted § 841 as if it
directly
incorporated the standard adopted by the Guidelines.
[50]
[51] Under the “relevant conduct” standard, a
See United States v. Banuelos, 322 F.3d 700, 704 (9th Cir.
defendant's offense level is determined based on the
2003). Banuelos held that in order to subject a conspirator to a
conduct of coconspirators only if the conduct falls “within
mandatory minimum or statutory maximum sentence under §
the scope of the jointly undertaken criminal activity,”
841(b), the type and quantity of the substance involved in the
is committed “in furtherance of that criminal activity,”
conspiracy must either have fallen “within the scope of the
and is “reasonably foreseeable in connection with that
defendant's agreement with his coconspirators” or have been
criminal activity.”28 U.S.S.G. § 1B1.3, cmt. n.3(A) (2018).
“reasonably foreseeable to the defendant.” Id.
The Guidelines apparently borrowed this standard from
Pinkerton, which limits a defendant's liability for substantive
Our error in Becerra and Banuelos was the failure
offenses committed by coconspirators to include only those
to recognize that the rule of coconspirator liability for
acts that were “done in furtherance of the conspiracy,”
substantive offenses in Pinkerton, which was incorporated
fell “within the scope of the unlawful project,” and were
into the Guidelines and applied regardless of whether the
“part of the ramifications of the plan” which could be
charge was conspiracy or a substantive offense, does not
“reasonably foreseen as a necessary or natural consequence
apply to the liability determination for a § 846 conspiracy
of the unlawful agreement.” Pinkerton, 328 U.S. at 647–48,
offense. As a result of this error, our cases mistakenly focused
66 S.Ct. 1180. But Pinkerton clearly distinguishes between
on the question whether we should adjust our interpretation
conspiracy and a substantive offense, see 328 U.S. at 643,
of § 846 and § 841(b) in accordance with the Guidelines'
66 S.Ct. 1180, while the Guidelines does not. Rather, the
shifting formulation, rather than whether that formulation is
Guidelines adopts Pinkerton's rule of coconspirator liability
applicable at all. See United States v. Torres, 869 F.3d 1089,
and applies it “in the case of a jointly undertaken criminal
1095–1100 (9th Cir. 2017) (Ikuta, J., specially concurring).
activity ... whether or not charged as a conspiracy.” U.S.S.G.
§ 1B1.3(a)(1)(B) (2018); see also U.S.S.G. § 1B1.3, cmt. n.1
[52] We now overrule Becerra and its progeny to the extent
(1991) (same).
they depart from our decision today. Because Pinkerton
addresses when a defendant can be liable for substantive
Perhaps due to the fact that Congress originally made the
offenses committed by coconspirators, it is irrelevant to a
Guidelines “mandatory and binding on all judges,” United
defendant's liability for conspiracy. To the extent § 1B1.3 or
States v. Booker, 543 U.S. 220, 233, 125 S.Ct. 738, 160
other applicable Guidelines provisions incorporate Pinkerton,
L.Ed.2d 621 (2005), we failed to make a distinction between
they cannot guide our statutory analysis when the defendants
the Guidelines and the sentencing factors set forth in § 841(b).
are charged only with conspiracy.
The misstep dates back to United States v. Becerra, which
involved a challenge to the district court's imposition of 20*1334 (i) within the scope of the jointly undertaken
criminal activity,

25

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

In reaching this conclusion, we join the well reasoned
opinion of the Sixth Circuit, which is grounded in the text
of the statute. See United States v. Robinson, 547 F.3d
632 (6th Cir. 2008). We note our departure from the other
circuits, which have largely made errors that echo our own.29
Some circuits rely on Pinkerton without acknowledging the
difference between conspiracy and the substantive offense.30
See, e.g., Stoddard, 892 F.3d at 1221. Other circuits rely on
the Guidelines. See, e.g., Haines, 803 F.3d at 740; United
States v. Irvin, 2 F.3d 72, 77 (4th Cir. 1993). And it appears
that two circuits have adopted one approach for mandatory
minimum sentences and a different approach *1336 for
statutory maximum sentences. See Pizarro, 772 F.3d at 292–
93; Haines, 803 F.3d at 741–42. For the reasons explained
above, we are not persuaded by the reasoning of those circuits
that have relied on Pinkerton, the Guidelines, or both.
Even though the Guidelines does not impact our interpretation
of the statute, the Guidelines works with the statute to
ensure that a defendant is not exposed to unlimited liability.
Once a defendant is convicted and the statutory sentencing
range is established by the jury's factual findings, the district
court must follow the Guidelines, which will establish a
fair sentence based on an individualized assessment of
accountability. “Under the Guidelines each conspirator, for
sentencing purposes, is to be judged not on the distribution
made by the entire conspiracy but on the basis of the quantity
of drugs which he reasonably foresaw or which fell within
‘the scope’ of his particular agreement with the conspirators.”
United States v. Petty, 992 F.2d 887, 890 (9th Cir. 1993).

V
We now apply our approach to the case on appeal. Each
defendant was indicted for conspiracy under § 846 to
distribute controlled substances in violation of § 841(a)(1).
At trial, the jury was instructed that if it found the
defendant guilty of the conspiracy charge, it had to determine
“whether the government proved beyond a reasonable
doubt that the amount of [the specified drug] that was
reasonably foreseeable to him or fell within the scope of
his particular agreement equaled or exceeded” a specified
amount. Although the district court was not at fault in
attempting to rely on our confusing precedent, we now
conclude that this instruction was erroneous. As we have
explained, a defendant convicted of conspiracy under § 846
is subject to a penalty under § 841(b)(1)(A)–(B) if the

government has proven beyond a reasonable doubt that the
underlying § 841(a)(1) offense involved the drug type and
quantity set forth in § 841(b)(1)(A)–(B). The government
does not have to prove that the defendant had any knowledge
or intent with respect to those facts.
[53] [54] A jury instruction misstating the law is subject to
harmless error review. United States v. Conti, 804 F.3d 977,
980 (9th Cir. 2015). An erroneous jury instruction will be
deemed harmless if the “reviewing court concludes beyond
a reasonable doubt that the omitted [or misstated] element
was uncontested and supported by overwhelming evidence,
such that the jury verdict would have been the same absent
the error.” Neder v. United States, 527 U.S. 1, 17, 119 S.Ct.
1827, 144 L.Ed.2d 35 (1999). In this case, the erroneous
jury instructions could amount to harmless error if there was
overwhelming evidence that each defendant entered into an
agreement involving the requisite drug type and quantity.
[55] To safeguard a criminal defendant's Sixth Amendment
guarantee to a jury trial, the reviewing court must “conduct a
thorough examination of the record.” Id. at 19, 119 S.Ct. 1827.
Given the numerous issues raised on appeal and the extensive
record from the ten-day jury trial, we find it appropriate to
return this case to the three-judge panel to reconsider both the
harmless error issue and the balance of the issues raised by
the parties in light of this opinion, and to enter an appropriate
judgment. See, e.g., Gonzalez Batoon v. INS, 791 F.2d 681,
686 (9th Cir. 1986) (en banc).
REMANDED to the three-judge panel.

W. FLETCHER, Circuit Judge, with whom THOMAS,
Chief Circuit Judge, and NGUYEN, WATFORD, and
HURWITZ, Circuit Judges, join, dissenting:
*1337 Under 21 U.S.C. § 841(a)(1), it is illegal for a person
“knowingly or intentionally” to “possess with intent to ...
distribute ... a controlled substance.” It has long been the
law in this circuit that “a defendant who has knowledge that
he possesses a controlled substance may have the state of
mind necessary for conviction even if he does not know
which controlled substance he possesses.” United States v.
Jewell, 532 F.2d 697, 698 (9th Cir. 1976) (en banc); see also
McFadden v. United States, 576 U.S. 186, 192, 135 S.Ct.
2298, 192 L.Ed.2d 260 (2015) (“The ordinary meaning of §
841(a) ... requires a defendant to know only that the substance
he is dealing with is some unspecified substance listed on the
federal drug schedules.”). In general, if the offense involves

26

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

a Schedule I or Schedule II controlled substance (absent
aggravating circumstances not at issue here), the defendant
may upon conviction receive a sentence of “not more than
twenty years.” 21 U.S.C. § 841(b)(1)(C). In such a case, there
is no mandatory minimum sentence. Id.
For eight specified Schedule I and II controlled substances,
however, §§ 841(b)(1)(A) and (b)(1)(B) provide for
mandatory minimum sentences that differ depending on
the particular substance and quantity. For example, if a
defendant distributes 50 or more grams of methamphetamine,
the mandatory minimum sentence is ten years and the
permissible maximum sentence is life. See id. § 841(b)
(1)(A)(viii). If a defendant distributes 100 or more grams
of a substance containing a detectable amount of heroin,
the mandatory minimum sentence is five years and the
permissible maximum sentence is forty years. See id. §
841(b)(1)(B)(i). If death or bodily injury results from the
distribution, the mandatory minimum sentence under both §§
841(b)(1)(A) and (b)(1)(B) is twenty years.
The defendants in this case were charged with conspiring, in
violation of 21 U.S.C. § 846, to distribute 50 grams or more
of methamphetamine and 100 grams or more of a substance
containing a detectable amount of heroin, in violation of
§§ 841(a)(1), 841(b)(1)(A)(viii) and (b)(1)(B)(i). According
to the majority, once the government proves beyond a
reasonable doubt that a defendant knowingly or intentionally
distributed a controlled substance, and that substance turns
out to be one of the eight controlled substances in an amount
specified by §§ 841(b)(1)(A) and (b)(1)(B), a mandatory
minimum and enhanced maximum sentence automatically
apply. The sentences for a violation of § 841(a)(1) are thus
dramatically and mandatorily increased in the absence of any
mens rea as to drug type and amount. I respectfully disagree.
Any crime whose penalty is increased by law based on a
specified fact is an “aggravated crime.” Alleyne v. United
States, 570 U.S. 99, 113, 133 S.Ct. 2151, 186 L.Ed.2d 314
(2013). “Any fact that, by law, increases the penalty for a
crime is an ‘element’ ” of the crime. Id. at 103, 133 S.Ct.
2151; see also Apprendi v. New Jersey, 530 U.S. 466, 120
S.Ct. 2348, 147 L.Ed.2d 435 (2000). Any such fact must be
submitted to the jury and proved beyond a reasonable doubt.
Alleyne, 570 U.S. at 116, 133 S.Ct. 2151. There is a strong
presumption that Congress intends to require a culpable mens
rea as to every element of a crime. See, e.g., Rehaif v. United
States, ––– U.S. ––––, 139 S. Ct. 2191, 2195, 204 L.Ed.2d
594 (2019); Flores-Figueroa v. United States, 556 U.S. 646,

650, 129 S.Ct. 1886, 173 L.Ed.2d 853 (2009). Applying that
presumption, I would hold that when the government seeks
enhanced penalties under *1338 §§ 841(b)(1)(A) or (b)(1)
(B)—specifically, the mandatory minimums and increased
statutory maximums that do not exist for Schedule I or II drug
violations charged under § 841(b)(1)(C)—it must prove the
defendant “knowingly or intentionally” distributed the actual
controlled substance and quantity charged under §§ 841(b)(1)
(A) or (b)(1)(B).

I. Presumption of Mens Rea
“[T]he existence of a mens rea is the rule of, rather than
the exception to, the principles of Anglo-American criminal
jurisprudence.” United States v. United States Gypsum Co.,
438 U.S. 422, 436, 98 S.Ct. 2864, 57 L.Ed.2d 854 (1978)
(internal quotation marks omitted). William Blackstone wrote
that it is “absurd” to apply the same punishment to “crimes
of different malignity.” 4 William Blackstone, Commentaries
on the Laws of England 17 (1769). In the leading nineteenthcentury treatise, Joel Prentiss Bishop wrote that punishment
requires concurrence between mens rea and the wrong
inflicted because “the evil intended is the measure of a man's
desert of punishment.” 1 Joel Prentiss Bishop, Commentaries
on the Criminal Law § 334 (7th ed. 1882). Justice Robert
Jackson wrote in Morissette v. United States that the relation
between mens rea and punishment is “almost as instinctive as
the child's familiar exculpatory ‘But I didn't mean to.’ ” 342
U.S. 246, 251, 72 S.Ct. 240, 96 L.Ed. 288 (1952).
The presumption of mens rea reinforces other foundational
principles of criminal law. First, a person's mistake of fact
ordinarily mitigates guilt and resulting punishment. As Justice
Jackson wrote, the law often recognizes “good faith or
blameless intent as a defense, partial defense, or as an element
to be considered in mitigation of punishment.” Id. at 265,
72 S.Ct. 240. Second, a person should have fair notice as
to the likely consequences of voluntary acts. The terms in a
penal statute defining an offense “must be sufficiently explicit
to inform those who are subject to it what conduct on their
part will render them liable to its penalties.” Connally v. Gen.
Const. Co., 269 U.S. 385, 391, 46 S.Ct. 126, 70 L.Ed. 322
(1926).
The Supreme Court has never insisted that Congress clearly
state its intention to require mens rea as part of the definition
of a crime. Indeed, in one case the Court relied on the
presumption to conclude that a mens rea is required despite

27

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

22

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

the complete absence of mens rea language anywhere in the
statute. See Staples v. United States, 511 U.S. 600, 619, 114
S.Ct. 1793, 128 L.Ed.2d 608 (1994). It necessarily follows
that the presumption applies “with equal or greater force”
when Congress includes an explicit mens rea provision.
Rehaif, 139 S. Ct. at 2195. A severe criminal penalty makes
the already strong presumption even stronger, for the severity
of the penalty is a “significant consideration” in determining
whether Congress intended to require a mens rea. Staples,
511 U.S. at 616, 114 S.Ct. 1793; see also United States v.
X-Citement Video, Inc., 513 U.S. 64, 72, 115 S.Ct. 464, 130
L.Ed.2d 372 (1994) (pointing to the harsh penalty as a reason
to apply the presumption). The presumption is overridden
only if Congress makes plain that it intends to forego a mens
rea requirement. Rehaif, 139 S. Ct. at 2195.
There are two exceptions to the presumption of mens rea,
neither of which applies in the case before us. First, there is an
exception for “public welfare” offenses. See id. at 2197. The
public welfare exception applies only to statutes that provide
for “light penalties such as fines or short jail sentences,”
Staples, 511 U.S. at 616, 114 S.Ct. 1793, or where “conviction
does no grave damage to an offender's reputation,” *1339
Morissette, 342 U.S. at 256, 72 S.Ct. 240. Second, mens rea
is not required for a jurisdictional element of a crime, such as
a requirement that a firearm traveled in interstate commerce,
because such elements have no bearing on the wrongfulness
of a defendant's conduct. Rehaif, 139 S. Ct. at 2196.

depending on particular facts specified in the statute. See 570
U.S. at 111–16, 133 S.Ct. 2151. The core crime was using
or carrying a firearm in relation to a crime of violence. A
defendant who committed the core crime, without more, was
subject to a 5-year mandatory minimum. A defendant who
“brandishe[d]” the firearm in committing the core crime was
subject to a 7-year mandatory minimum. See 18 U.S.C. §
924(c)(1)(A)(i)–(ii). The Court wrote that “facts increasing
the legally prescribed floor aggravate the punishment” and
“heighten[ ] the loss of liberty associated with the crime.”
Alleyne, 570 U.S. at 113, 133 S.Ct. 2151 (emphasis in
original). “[T]he core crime and the fact triggering the
mandatory minimum sentence together constitute a new,
aggravated crime.” Id. According to the Court, “Any fact that,
by law, increases the penalty for a crime is an ‘element.’ ”
Id. at 103, 133 S.Ct. 2151. Any such fact must be submitted
to the jury and proved beyond a reasonable doubt. Id. at 116,
133 S.Ct. 2151.
To give effect to the presumption of mens rea, the Court
has been “reluctan[t] to simply follow the most grammatical
reading of [a] statute.” X-Citement Video, 513 U.S. at 70, 115
S.Ct. 464. X-Citement Video is a prime example of ignoring
the niceties of grammar. The statute at issue provided:
(a) Any person who—
(1) knowingly transports or ships using any means
or facility of interstate or foreign commerce or in or
affecting interstate or foreign commerce by any means
including by computer or mails, any visual depiction, if
—

There is a strong presumption that a mens rea requirement
exists for all elements of a crime. See id. at 2195 (citing Model
Penal Code § 2.02(4), (Am. L. Inst. 1985) (when a statute
prescribes a level of culpability, it applies to “all the material
elements of the offense, unless a contrary purpose plainly
appears”)). In two cases, the Supreme Court has explained
what constitutes an “element.”
In Apprendi, the Court held that a fact underlying a sentencing
enhancement beyond the statutory maximum is an element
of the crime, disagreeing with New Jersey's contention that
a fact resulting in a higher sentence was a mere “sentencing
factor.” 530 U.S. at 492, 120 S.Ct. 2348. Rather, the Court
explained, the question of whether a fact is an element of the
crime is “one not of form, but of effect.” Id. at 494, 120 S.Ct.
2348. Courts must ask whether the fact exposes the defendant
to greater punishment. Id.
In Alleyne, the Court applied Apprendi to a statute describing
a “core crime” and prescribing escalating criminal penalties

(A) the producing of such visual depiction involves
the use of a minor engaging in sexually explicit
conduct; and
(B) such visual depiction is of such conduct;
...
shall be punished as provided in subsection (b) of this
section.
18 U.S.C. § 2252(a). The question was whether the mens rea
of “knowingly” required that defendants not only knew that
they were transporting or shipping a “visual depiction” of
“sexually explicit conduct,” but also required that they knew
that the depiction “involve[d] the use of a minor engaging in
[that] conduct.” Id.

28

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

23

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

*1340 Our court had held in X-Citement Video that the
mens rea requirement applied only to the act of transporting
the depiction of sexually explicit conduct. United States v.
X-Citement Video, Inc., 982 F.2d 1285, 1289–90 (9th Cir.
1992). We had held that mens rea requirement did not require
knowledge that the depiction involved the use of a minor. See
id. at 1292 (stating that applying mens rea to this element
would be “judicial rewriting of [the] statute”). The Supreme
Court reversed. In an opinion by Chief Justice Rehnquist,
the Court held that the knowledge mens rea applied to both
elements of the crime. The Court held that “knowingly”
modified the phrase “involves the use of a minor,” even
though the key phrase was not the phrase directly modified by
the adverb. X-Citement Video, 513 U.S. at 68–70, 115 S.Ct.
464.
Further, the Supreme Court has allowed a considerable
distance between the words specifying the mens rea and the
words describing the element of the crime. In X-Citement
Video, the adverb “knowingly” was separated from “involves
the use of a minor” by twenty-six words. In Rehaif, the word
specifying the mens rea and the words specifying elements
of the crime were in entirely different sections of Title 18.
Section 924(a)(2) provided a penalty of up to 10 years'
imprisonment for “knowingly” engaging in acts with several
different factual predicates. The acts were identified in §
924(a)(2) only by cross-references to subsections in § 922.
Among the factual predicates in § 922(g) were two relevant to
the defendant: (1) that the defendant possessed a firearm, and
(2) that the defendant was an alien unlawfully in the United
States. The question was whether the government needed to
prove that a defendant charged with violating § 924(a)(2)
knew both that he possessed a firearm and that his status
at the time of possession was as an alien unlawfully in the
country. The Court held that Congress intended mens rea as to
all material elements of the crime, even those in the separate
section of the statute. Rehaif, 139 S. Ct. at 2196.

II. Aggravated Crimes under §§ 841(b)(1)(A) and 841(b)(1)
(B)
Subsection 841(a)(1) criminalizes conduct with respect to
a wide range of controlled substances and quantities, with
a correspondingly wide range of penalties, as specified in
§ 841(b)(1). Subsection 841(a)(1) provides that “it shall
be unlawful for any person knowingly or intentionally
to manufacture, distribute, or dispense, or possess with
intent to manufacture, distribute or dispense, a controlled

substance.” (Emphasis added.) The general punishment for §
841(a)(1) violations involving Schedule I and II substances
is up to twenty years in prison, with no mandatory minimum
sentence. 21 U.S.C. § 841(b)(1)(C).
However, §§ 841(b)(1)(A) and (b)(1)(B), when combined
with § 841(a)(1), describe “aggravated crimes” under Alleyne,
570 U.S. at 113, 133 S.Ct. 2151. When a forbidden act
with respect to one of eight specific Schedule I or II
controlled substances is charged under §§ 841(b)(1)(A)
or (b)(1)(B), mandatory minimum and higher maximum
sentences apply. Section 841(b)(1)(A) provides a “term of
imprisonment” of “not ... less than 10 years or more than
life ...” for eight controlled substances meeting or exceeding
specified quantities. Subsection 841(b)(1)(B) provides for
an imprisonment term of “not ... less than 5 years and
not more than 40 years ...” for the same eight substances
in lesser quantities. If death or bodily injury results from
the manufacture, distribution or dispensation, the mandatory
minimum sentence under both §§ 841(b)(1)(A) and (b)(1)(B)
is increased to twenty years.
*1341 We are concerned in this case with two of the
controlled substances and quantities listed in §§ 841(b)(1)
(A) and (b)(1)(B). Defendants were charged with conspiring
to distribute controlled substances and quantities listed
in § 841(b)(1)(A)(viii) (methamphetamine, a Schedule II
substance) and § 841(b)(1)(B)(i) (heroin, a Schedule I
substance).
This should be an easy case. The structure of § 841 is
clear and straightforward. Subsection 841(a)(1) prohibits
certain knowing or intentional acts with respect to
controlled substances. Subsections 841(b)(1)(A) and (b)(1)
(B), immediately following, prescribe mandatory enhanced
penalties for eight specified Schedule I and II controlled
substances in specified quantities. Under § 841(b)(1)(C),
unless death or serious bodily injury results, no mandatory
minimum applies to violations of § 841(a)(1). But under §
841(b)(1)(A)(viii), a sentence of not less than 10 years and
no more than life applies to an offense involving 50 grams
or more of methamphetamine. Under § 841(b)(1)(B)(i), a
sentence of not less than five years and no more than 40 years
applies to an offense involving between 100 grams or more
of a substance containing a detectable amount of heroin.
Under Alleyne, the specific controlled substance and its
quantity are elements of the aggravated crimes created by
the combination of § 841(a)(1) and §§ 841(b)(1)(A) and (b)

29

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

24

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

(1)(B). Even without the presumption that mens rea applies
to all elements of a crime, I would conclude that a plain
reading of § 841 indicates that Congress intended to require
the government to prove knowledge or intent with respect
to the controlled substances and quantities specified in §§
841(b)(1)(A) and (b)(1)(B). But the presumption applies, and
it reinforces the conclusion I would reach independently.
Indeed, the presumption applies with particular force, given
the severity of the penalties.
Despite the explicit mens rea requirement in § 841(a)(1),
despite the proximity of § 841(a)(1) to §§ 841(b)(1)(A)
and (b)(1)(B), despite the fact that type and quantity of the
controlled substances in §§ 841(b)(1)(A) and (b)(1)(B) are
elements of the crime, and despite the mandatory nature
and severity of the penalties under §§ 841(b)(1)(A) and (b)
(1)(B), the majority concludes that § 841 requires that the
government prove knowledge or intent only with respect to
a controlled substance—indeed, only with respect to any
controlled substance, not limited to the eight substances listed
in §§ 841(b)(1)(A) and (b)(1)(B). I respectfully disagree.
The majority makes several arguments in support of its
conclusion. I find none of them persuasive.
First, the majority writes that “§ 841(b)(1), unlike § 841(a),
is silent as to any mens rea requirement.” Maj. Op. at ––––.
It is of course true that §§ 841(b)(1)(A) and (b)(1)(B) do
not contain a mens rea requirement. The requirement is in §
841(a)(1). But the “silence” to which the majority refers is a
far cry from the true silence in Staples, where the statute had
no mens rea requirement whatsoever. Yet the Court in Staples,
relying on the presumption of mens rea, held that the statute
required mens rea on the part of the defendant. Staples, 511
U.S. at 619, 114 S.Ct. 1793.
Second, the majority writes, relying on “ordinary English
grammar,” that “[t]here is no natural or ordinary way to read
the intent requirement in § 841(a)(1) as modifying the drug
types and quantities in § 841(b).” Maj. Op. at ––––. But the
question before us is not centrally a grammatical question,
to be answered as if we were diagramming a sentence. The
question is a *1342 broader interpretive question. It is
whether we should infer Congressional intent to require mens
rea when one subsection of the statute specifies a mens rea for
criminal violations, including violations carrying mandatory
sentences, and the immediately following subsections lists
the controlled substances and quantities that require those
mandatory sentences. If that is the question, as it surely

must be, it is easy to read the statute in a “natural or
ordinary way” to apply the mens rea requirement contained
in one subsection to the criminal behavior specified in the
immediately following subsections that impose mandatory
sentences.
Third, the majority argues that the “knowingly or
intentionally” mens rea in § 841(a)(1) cannot apply to
controlled substances and quantities in §§ 841(b)(1)(A) and
(b)(1)(B) because Congress explicitly provided for a mens rea
of “knowingly or intentionally” in § 841(b)(6). The majority
correctly points out “that Congress knew how to require proof
of mens rea with respect to the predicate facts for sentences
under § 841(b),” and that it did not explicitly provide that the
mens rea requirement of “knowingly or intentionally” applied
to crimes specified in § 841(b)(1)(A)–(B). Maj. Op. at ––––.
It incorrectly concludes, however, that if the “knowingly or
intentionally” mens rea requirement contained in § 841(a)
(1) applies to acts described in §§ 841(b)(1)(A) and (b)
(1)(B), the identical mens rea specified in § 841(b)(6) is
“surplusage.” Id. According to the majority, “this redundancy
fatally undermines the dissent's position.” Id.
The majority misunderstands § 841(b)(6). There are two
criminal acts specified in § 841(b)(6). It provides, “Any
person who [1] violates subsection (a) ..., and [2] knowingly
or intentionally uses a poison, chemical or other hazardous
substance on Federal land ... shall be fined ... or imprisoned
not more than five years, or both.” (Emphasis and bracketed
numbers added.) The first criminal act is a violation of §
841(a). As we know, § 841(a) already contains the mens rea
of “knowingly or intentionally,” and it forbids manufacturing,
distributing or dispensing controlled substances. The second
criminal act is poisoning federal lands. It is a separate criminal
act that is not forbidden by § 841(a). Because it is a separate
criminal act as to which the mens rea specified in § 841(a)
does not apply, Congress separately specified the mens rea
of “knowingly or intentionally” for that separate act. Far
from supporting the majority's conclusion, § 841(b)(6) is
inconsistent with it. For the first crime specified in § 841(b)
(6), the mens rea of “knowingly or intentionally” is already
provided in § 841(a)(1). For the second crime, mens rea is
not provided by § 841(a)(1). Section § 841(b)(6) therefore
explicitly provides that mens rea, in words that precisely
replicate the mens rea in § 841(a)(1). There is no surplusage.
Rather, there is a confirmation that the mens rea specified in
§ 841(a)(1) can apply to the crimes and mandatory penalties
specified in § 841(b)(1).

30

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

25

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

Fourth, the majority suggests that the presumption of mens
rea should apply only to acts that, absent the statute, are
“entirely innocent.” Maj. Op. at –––– (quoting Rehaif, 139
S. Ct. at 2197). It writes, “The presumption that Congress
intended the defendant to possess a culpable mental state as
to ‘each of the statutory elements that criminalize otherwise
innocent conduct’ is particularly appropriate when a different
reading would have the effect of criminalizing ‘a broad range
of apparently innocent conduct.’ ” Id. at –––– – –––– (internal
citations omitted). The Supreme Court has never held that the
presumption of mens rea protects only the entirely innocent.
Indeed, as Justice Kavanaugh wrote while a judge on the
D.C. Circuit, it would *1343 be “illogical in the extreme” to
limit the presumption of mens rea in this way. United States
v. Burwell, 690 F.3d 500, 529 (D.C. Cir. 2012) (en banc)
(Kavanaugh, J., dissenting).
The government has argued to the Court that the presumption
of mens rea protects only the innocent, and its argument
has been rejected. See Brief for the United States at 33–38,
Flores-Figueroa v. United States, 556 U.S. 646 (2009) (No.
08-108), 2009 WL 191837. The government argued in FloresFigueroa that the word “knowingly” in 18 U.S.C. § 1028A(a)
(1) did not apply to a certain element of an aggravated identity
theft crime because there was no risk of “criminalization
of any ‘apparently innocent conduct.’ ” Id. at 34 (quoting
Liparota v. United States, 471 U.S. 419, 426, 105 S.Ct. 2084,
85 L.Ed.2d 434 (1985)). But the Court refused to adopt that
view.
I am, of course, aware that cases previously decided by our
court support the majority's conclusion. See, e.g., United
States v. Soto-Zuniga, 837 F.3d 992 (9th Cir. 2016); United

States v. Jefferson, 791 F.3d 1013 (9th Cir. 2015). I believe
that these cases were wrongly decided. See Jefferson, 791
F.3d at 1019 (Fletcher, J., concurring). In recent years, the
Supreme Court has paid increasing attention to statutory
sentencing schemes. See Alleyne, 570 U.S. at 103, 133
S.Ct. 2151; Harris v. United States, 536 U.S. 545, 122
S.Ct. 2406, 153 L.Ed.2d 524 (2002), overruled by Alleyne,
570 U.S. at 103, 133 S.Ct. 2151; Apprendi, 530 U.S. 466,
120 S.Ct. 2348. Alleyne reflects a broad concern about
the unfairness of sentencing schemes in which the facts
that are legally essential to the punishment need not be
found beyond a reasonable doubt. See Alleyne, 570 U.S. at
112, 133 S.Ct. 2151 (“[I]f ‘a statute prescribes a particular
punishment to be inflicted on those who commit it under
special circumstances which it mentions, or with particular
aggravations,’ then those special circumstances must be
specified in the indictment[.]” (quoting 1 Joel Prentiss
Bishop, Criminal Procedure § 598, at 360–61 (2d ed. 1872))).
It is a small step from Alleyne to the conclusion I would reach
in this case. The same concern about unfairness that motivated
the Court in Alleyne should lead us to the conclusion that
the mens rea requirement specified in § 841(a)(1) applies
to the acts and mandatory penalties specified in §§ 841(b)
(1)(A) and (b)(1)(B). Congress did not intend in § 841 to
impose mandatory sentences of five, ten and twenty years,
and maximum sentences of life, based on mistakes of fact and
unintentional acts.
All Citations
984 F.3d 1308, 21 Cal. Daily Op. Serv. 443, 2021 Daily
Journal D.A.R. 516

Footnotes

1

2

3
4
5
6

The indictment specifically alleged that the defendants “did knowingly and intentionally conspire ... to distribute: 50 grams
and more of actual methamphetamine, a Schedule II Controlled Substance; 500 grams and more of a mixture containing
methamphetamine, a Schedule II Controlled Substance; and 100 grams and more of heroin, a Schedule II Controlled
Substance.” The indictment also alleged a RICO conspiracy, in violation of 18 U.S.C. § 1962(d), and criminal forfeiture,
pursuant to 18 U.S.C. § 1963.
The note read:
Count 2. If we find the defendant guilty on Count 2 “foreseeable to him or fell within the scope of his particular agreement
equal to or exceeded 50 grams of pure meth or 500 grams of a mixture ...”
Q[:] Does this mean we have to determine if each defendant individually met the 50/500 gram requirement?
The district court assumed that the defense counsel for each defendant joined this argument.
The jury also found each defendant guilty of participating in the RICO conspiracy.
Ballesteros did not join his co-defendants in challenging the jury instructions on appeal until we requested supplemental
briefing.
We address only this issue, and return the appeals to the three-judge panel to address the remaining issues.

31

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

26

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

7

8
9

10

11
12

13

14

15

16

Nor does the government have to prove that the defendant or a coconspirator took an overt act in furtherance of
the agreement. See Whitfield v. United States, 543 U.S. 209, 213–14, 125 S.Ct. 687, 160 L.Ed.2d 611 (2005). This
distinguishes § 846 from the general federal conspiracy statute, 18 U.S.C. § 371, which requires proof of an agreement
among two or more persons to commit an offense against the United States and that “one or more of such persons do
any act to effect the object of the conspiracy.”
“Although conspirators must pursue the same criminal objective, a conspirator need not agree to commit or facilitate each
and every part of the substantive offense.” Ocasio, 136 S. Ct. at 1429 (internal quotation marks omitted and alteration
adopted).
A defendant convicted of conspiracy may also be held criminally liable for substantive offenses committed by other
members of the conspiracy, so long as the offenses were reasonably foreseeable and committed in furtherance of the
conspiracy. See Pinkerton v. United States, 328 U.S. 640, 647–48, 66 S.Ct. 1180, 90 L.Ed. 1489 (1946); United States v.
Sullivan, 522 F.3d 967, 977 (9th Cir. 2008) (per curiam). Such liability is not at issue here. The rule of coconspirator liability
under Pinkerton applies when the government charges a defendant with substantive offenses that were committed by
other members of the conspiracy, see Pinkerton, 328 U.S. at 647–48, 66 S.Ct. 1180, not when the government charges
a defendant with the crime of conspiracy itself, see id. at 645, 66 S.Ct. 1180.
For a conspiracy offense under § 846, the government need not prove a level of criminal intent greater than that for the
underlying offense, see infra Section III. Because the government need not prove that a defendant knew (or had an intent)
with respect to a specific drug type and quantity in order to secure a conviction under § 841(a) and penalties under §
841(b)(1), see infra Section II.B, the government likewise need not prove such knowledge or intent for purposes of § 846.
For convenience, we use the term “distribute” and its variations to refer collectively to the actions prohibited by § 841(a)(1).
21 U.S.C. § 841(b)(1)(B)(i) states:
(B) In the case of a violation of subsection (a) of this section involving–
(i) 100 grams or more of a mixture or substance containing a detectable amount of heroin;
...
such person shall be sentenced to a term of imprisonment which may not be less than 5 years and not more than
40 years and if death or serious bodily injury results from the use of such substance shall be not less than 20 years
or more than life, a fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or
$5,000,000 if the defendant is an individual or $25,000,000 if the defendant is other than an individual, or both.
The dissent argues that Alleyne “reflects a broad concern about the unfairness of sentencing schemes in which the facts
that are legally essential to the punishment need not be found beyond a reasonable doubt.” Dissent at ––––. Contrary
to the dissent, Alleyne did not hold that it was generally unfair for the district court to find facts that could increase the
sentence for a “legally prescribed offense” by a preponderance of evidence. See Alleyne, 570 U.S. at 117, 133 S.Ct.
2151. Rather, Alleyne held that it was unconstitutional (a violation of the Sixth and Fifth Amendment) for the court to
find such a fact. Id.
Section 1028A(a)(1) states that:
Whoever, during and in relation to any felony violation enumerated in subsection (c), knowingly transfers, possesses, or
uses, without lawful authority, a means of identification of another person shall, in addition to the punishment provided
for such felony, be sentenced to a term of imprisonment of 2 years.
(emphasis added).
18 U.S.C. § 924(a)(2) provides:
Whoever knowingly violates subsection (a)(6), (d), (g), (h), (i), (j), or (o) of section 922 shall be fined as provided in
this title, imprisoned not more than 10 years, or both.
18 U.S.C. § 922(g)(5)(A) provides:
(g) It shall be unlawful for any person— ...
(5) who, being an alien—(A) is illegally or unlawfully in the United States ... to ... possess ... any firearm or
ammunition ....
The Court read the word “knowingly” from § 924(a)(2) into § 922(g) and then applied the “knowingly” requirement to
each of the elements in the statutory sentence in § 922(g)(5)(A) “that make a defendant's behavior criminal.” Rehaif,
139 S. Ct. at 2196.
Contrary to the dissent's assertion, the Court does not count the number of words between the mens rea requirement
and an element of the crime to aid its determination as to whether to apply the mens rea requirement. Dissent at –––– –
––––. Rather, the Court begins by considering the natural reading of the statute using ordinary English grammar, and a

32

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

27

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

17
18

19

20

21

22

23

24

25
26
27

grammatical sentence can nevertheless be quite long. See, e.g., Thomas R. Haggard, Justifiably Long Sentences, S.C.
Law. Feb. 2000, at 11.
Because Staples has little relevance to the “how far” question raised in our case, the dissent's reliance on Staples, Dissent
at –––– – ––––, is mistaken.
21 U.S.C. § 841(b)(6) provides:
Any person who violates subsection (a), or attempts to do so, and knowingly or intentionally uses a poison, chemical,
or other hazardous substance on Federal land, and, by such use—
(A) creates a serious hazard to humans, wildlife, or domestic animals,
(B) degrades or harms the environment or natural resources, or
(C) pollutes an aquifer, spring, stream, river, or body of water,
shall be fined in accordance with Title 18 or imprisoned not more than five years, or both.
The predicate facts in § 841(b)(6) are not distinguishable from the predicate facts in § 841(b)(1) in any relevant way. Both
subsections provide the predicate facts for sentencing purposes. When Congress wanted to establish independently
prosecutable offenses in § 841, it added additional sections, such as § 841(g) (criminalizing internet sales of date rape
drugs) and § 841(h) (criminalizing dispensing of controlled substances by means of the internet).
Contrary to the dissent's suggestion, Dissent at –––– – ––––, Judge (now Justice) Kavanaugh, in dissenting in United
States v. Burwell, chose not to address the question of “how the presumption [of mens rea] applies to a fact that Congress
made a sentencing factor but that must be treated as an element of the offense for Fifth and Sixth Amendment purposes.”
690 F.3d 500, 540 n.13 (D.C. Cir. 2012) (en banc) (Kavanaugh, J., dissenting).
United States v. Collazo-Aponte, 281 F.3d 320, 326 (1st Cir. 2002); United States v. Andino, 627 F.3d 41, 45–47 (2d Cir.
2010); United States v. Barbosa, 271 F.3d 438, 458 (3d Cir. 2001); United States v. Brower, 336 F.3d 274, 277 (4th Cir.
2003); United States v. Betancourt, 586 F.3d 303, 308–09 (5th Cir. 2009); Dado, 759 F.3d at 569–70; United States v.
Carrera, 259 F.3d 818, 830 (7th Cir. 2001); United States v. Ramos, 814 F.3d 910, 915–17 (8th Cir. 2016); United States
v. De La Torre, 599 F.3d 1198, 1204 (10th Cir. 2010); United States v. Sanders, 668 F.3d 1298, 1310 (11th Cir. 2012);
United States v. Branham, 515 F.3d 1268, 1275–76 (D.C. Cir. 2008).
The Eleventh Circuit has likewise applied Feola outside the context of jurisdictional facts. See, e.g., United States v.
Whyte, 928 F.3d 1317, 1332 (11th Cir. 2019) (relying on Feola for the proposition that where the “offense of sex trafficking
of a minor does not require knowledge of the victim's status as a minor,” then the conspirator “cannot import such a
requirement into her conspiracy offense.”); see also United States v. Duran, 596 F.3d 1283, 1296 (11th Cir. 2010) (holding
that where a defendant has been charged with conspiracy to act as an agent of a foreign government without providing
the required notification, the government does not have to prove the defendant knew of the notification requirement when
the underlying substantive offense does not require proof of such knowledge).
Compare 18 U.S.C. § 371 (“If two or more persons conspire either to commit any offense against the United States, or
to defraud the United States, or any agency thereof in any manner or for any purpose, and one or more of such persons
do any act to effect the object of the conspiracy, each shall be fined under this title or imprisoned not more than five
years, or both.”), with 21 U.S.C. § 846 (“Any person who attempts or conspires to commit any offense defined in this
subchapter shall be subject to the same penalties as those prescribed for the offense, the commission of which was the
object of the attempt or conspiracy.”).
For the same reason, we reject the views of the Fifth Circuit in United States v. Anderson, 932 F.3d 344, 352 (5th Cir.
2019). In Anderson, the Fifth Circuit held that where a person has been charged with conspiracy to receive money
obtained from extortion, the government must prove that the conspirator knew the money was the proceeds of extortion,
even though the underlying substantive offense does not require proof of such knowledge. Id. Citing Ocasio, the Fifth
Circuit reasoned that the “mens rea for conspiracy is distinct and more demanding” than for the underlying substantive
count because the government must prove that the defendant agreed that some member of the conspiracy would commit
every element of the offense. Id. The Fifth Circuit stands alone with this approach. Because it fails to mention, let alone
distinguish, Feola, which rejected a similar argument, we decline to follow it.
This was the crux of the dispute between the parties.
For example, an offense level is increased by two levels when “the object of the offense was the distribution of a controlled
substance in a prison, correctional facility, or detention facility.” U.S.S.G.§ 2D1.1(b)(4) (2018).
The meaning of the term “relevant conduct” in the context of a jointly undertaken criminal activity has changed over the
years. For example, in 1991, the term “relevant conduct” included “all acts and omissions ... for which the defendant would
be otherwise accountable,” U.S.S.G. § 1B1.3(a)(1) (1991), and the application notes explained that the “[c]onduct for
which the defendant ‘would be otherwise accountable’ ... includes conduct of others in furtherance of the execution of the

33

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

28

United States v. Collazo, 984 F.3d 1308 (2021)
21 Cal. Daily Op. Serv. 443, 2021 Daily Journal D.A.R. 516

28
29

30

jointly-undertaken criminal activity that was reasonably foreseeable by the defendant,” U.S.S.G. § 1B1.3, cmt. n.1 (1991).
The Guidelines did not include the “within the scope” requirement until 2015. See U.S.S.G. § 1B1.3(a)(1)(B) (2015).
Such a sentencing determination must be supported by a preponderance of the evidence. See United States v. Perez,
962 F.3d 420, 448 (9th Cir. 2020).
See United States v. Pizarro, 772 F.3d 284 (1st Cir. 2014); United States v. Martinez, 987 F.2d 920 (2d Cir. 1993); United
States v. Phillips, 349 F.3d 138 (3d Cir. 2003), vacated on other grounds, Barbour v. United States, 543 U.S. 1102, 125
S.Ct. 992, 160 L.Ed.2d 1012 (2005); United States v. Collins, 415 F.3d 304 (4th Cir. 2005); United States v. Haines,
803 F.3d 713 (5th Cir. 2015); United States v. Seymour, 519 F.3d 700 (7th Cir. 2008); United States v. Littrell, 439 F.3d
875 (8th Cir. 2006); United States v. Ellis, 868 F.3d 1155 (10th Cir. 2017); United States v. Stoddard, 892 F.3d 1203
(D.C. Cir. 2018).
The Fourth Circuit concedes that “[t]he principles outlined in Pinkerton” do not apply to conspiracy under § 846, but it
nevertheless requires a jury to be instructed in Pinkerton principles when determining the substance type and quantity
involved in a conspiracy. Collins, 415 F.3d at 313, 314.

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

End of Document

34

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

29

U.S. Const. Amend. V
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.

35

U.S. Const. Amend. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defence.

36

21 U.S.C. § 960
(a) Unlawful acts
Any person who-(1) contrary to section 825, 952, 953, or 957 of this title, knowingly or
intentionally imports or exports a controlled substance,
(2) contrary to section 955 of this title, knowingly or intentionally brings or
possesses on board a vessel, aircraft, or vehicle a controlled substance, or
(3) contrary to section 959 of this title, manufactures, possesses with intent to
distribute, or distributes a controlled substance,
shall be punished as provided in subsection (b) of this section.
(b) Penalties
(1) In the case of a violation of subsection (a) of this section involving-(A) 1 kilogram or more of a mixture or substance containing a detectable
amount of heroin;
(B) 5 kilograms or more of a mixture or substance containing a detectable
amount of-(i) coca leaves, except coca leaves and extracts of coca leaves from which
cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
(ii) cocaine, its salts, optical and geometric isomers, and salts or isomers;
(iii) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(iv) any compound, mixture, or preparation which contains any quantity of any
of the substances referred to in clauses (I) through (iii);
(C) 280 grams or more of a mixture or substance described in subparagraph (B)
which contains cocaine base;

37

(D) 100 grams or more of phencyclidine (PCP) or 1 kilogram or more of a
mixture or substance containing a detectable amount of phencyclidine (PCP);
(E) 10 grams or more of a mixture or substance containing a detectable amount
of lysergic acid diethylamide (LSD);
(F) 400 grams or more of a mixture or substance containing a detectable amount
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide or 100 grams or
more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(G) 1000 kilograms or more of a mixture or substance containing a detectable
amount of marihuana; or
(H) 50 grams or more of methamphetamine, its salts, isomers, and salts of its
isomers or 500 grams or more of a mixture or substance containing a detectable
amount of methamphetamine, its salts, isomers, or salts of its isomers.1
the person committing such violation shall be sentenced to a term of
imprisonment of not less than 10 years and not more than life and if death or
serious bodily injury results from the use of such substance shall be sentenced
to a term of imprisonment of not less than 20 years and not more than life, a
fine not to exceed the greater of that authorized in accordance with the
provisions of Title 18 or $10,000,000 if the defendant is an individual or
$50,000,000 if the defendant is other than an individual, or both. If any person
commits such a violation after a prior conviction for a felony drug offense has
become final, such person shall be sentenced to a term of imprisonment of not
less than 20 years and not more than life imprisonment and if death or serious
bodily injury results from the use of such substance shall be sentenced to life
imprisonment, a fine not to exceed the greater of twice that authorized in
accordance with the provisions of Title 18 or $20,000,000 if the defendant is an
individual or $75,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of Title 18, any sentence under this paragraph
shall, in the absence of such a prior conviction, impose a term of supervised
release of at least 5 years in addition to such term of imprisonment and shall, if
there was such a prior conviction, impose a term of supervised release of at
least 10 years in addition to such term of imprisonment. Notwithstanding any
other provision of law, the court shall not place on probation or suspend the
sentence of any person sentenced under this paragraph. No person sentenced

38

under this paragraph shall be eligible for parole during the term of
imprisonment imposed therein.
(2) In the case of a violation of subsection (a) of this section involving-(A) 100 grams or more of a mixture or substance containing a detectable
amount of heroin;
(B) 500 grams or more of a mixture or substance containing a detectable
amount of-(i) coca leaves, except coca leaves and extracts of coca leaves from which
cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
(ii) cocaine, its salts, optical and geometric isomers, and salts or isomers;
(iii) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(iv) any compound, mixture, or preparation which contains any quantity of any
of the substances referred to in clauses (I) through (iii);
(C) 28 grams or more of a mixture or substance described in subparagraph (B)
which contains cocaine base;
(D) 10 grams or more of phencyclidine (PCP) or 100 grams or more of a
mixture or substance containing a detectable amount of phencyclidine (PCP);
(E) 1 gram or more of a mixture or substance containing a detectable amount of
lysergic acid diethylamide (LSD);
(F) 40 grams or more of a mixture or substance containing a detectable amount
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide or 10 grams or
more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(G) 100 kilograms or more of a mixture or substance containing a detectable
amount of marihuana; or

39

(H) 5 grams or more of methamphetamine, its salts, isomers, and salts of its
isomers or 50 grams or more of a mixture or substance containing a detectable
amount of methamphetamine, its salts, isomers, or salts of its isomers.1
the person committing such violation shall be sentenced to a term of
imprisonment of not less than 5 years and not more than 40 years and if death or
serious bodily injury results from the use of such substance shall be sentenced
to a term of imprisonment of not less than twenty years and not more than life, a
fine not to exceed the greater of that authorized in accordance with the
provisions of Title 18 or $5,000,000 if the defendant is an individual or
$25,000,000 if the defendant is other than an individual, or both. If any person
commits such a violation after a prior conviction for a felony drug offense has
become final, such person shall be sentenced to a term of imprisonment of not
less than 10 years and not more than life imprisonment and if death or serious
bodily injury results from the use of such substance shall be sentenced to life
imprisonment, a fine not to exceed the greater of twice that authorized in
accordance with the provisions of Title 18 or $8,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of Title 18, any sentence imposed under this
paragraph shall, in the absence of such a prior conviction, include a term of
supervised release of at least 4 years in addition to such term of imprisonment
and shall, if there was such a prior conviction, include a term of supervised
release of at least 8 years in addition to such term of imprisonment.
Notwithstanding any other provision of law, the court shall not place on
probation or suspend the sentence of any person sentenced under this
paragraph. No person sentenced under this paragraph shall be eligible for parole
during the term of imprisonment imposed therein.
(3) In the case of a violation under subsection (a) of this section involving a
controlled substance in schedule I or II, gamma hydroxybutyric acid (including
when scheduled as an approved drug product for purposes of section 3(a)(1)(B)
of the Hillory J. Farias and Samantha Reid Date-Rape Drug Prohibition Act of
2000), or flunitrazepam, the person committing such violation shall, except as
provided in paragraphs (1), (2), and (4), be sentenced to a term of imprisonment
of not more than 20 years and if death or serious bodily injury results from the
use of such substance shall be sentenced to a term of imprisonment of not less
than twenty years and not more than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of Title 18 or $1,000,000 if the
defendant is an individual or $5,000,000 if the defendant is other than an
individual, or both. If any person commits such a violation after a prior

40

conviction for a felony drug offense has become final, such person shall be
sentenced to a term of imprisonment of not more than 30 years and if death or
serious bodily injury results from the use of such substance shall be sentenced
to life imprisonment, a fine not to exceed the greater of twice that authorized in
accordance with the provisions of Title 18 or $2,000,000 if the defendant is an
individual or $10,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of Title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the absence of such a prior
conviction, impose a term of supervised release of at least 3 years in addition to
such term of imprisonment and shall, if there was such a prior conviction,
impose a term of supervised release of at least 6 years in addition to such term
of imprisonment. Notwithstanding the prior sentence, and notwithstanding any
other provision of law, the court shall not place on probation or suspend the
sentence of any person sentenced under the provisions of this paragraph which
provide for a mandatory term of imprisonment if death or serious bodily injury
results.
(4) In the case of a violation under subsection (a) of this section with respect to
less than 50 kilograms of marihuana, except in the case of 100 or more
marihuana plants regardless of weight, less than 10 kilograms of hashish, or less
than one kilogram of hashish oil, the person committing such violation shall be
sentenced in accordance with section 841(b)(1)(D) of this title.
(5) In the case of a violation of subsection (a) involving a controlled substance
in schedule III, such person shall be sentenced in accordance with section
841(b)(1) of this title.
(6) In the case of a violation of subsection (a) involving a controlled substance
in schedule IV, such person shall be sentenced in accordance with section
841(b)(2) of this title.
(7) In the case of a violation of subsection (a) involving a controlled substance
in schedule V, such person shall be sentenced in accordance with section
841(b)(3) of this title.
(c) Repealed. Pub.L. 98-473, Title II, § 225, formerly § 225(a), Oct. 12, 1984,
98 Stat. 2030, as amended by Pub.L. 99-570, Title I, § 1005(c), Oct. 27, 1986,
100 Stat. 3207-6

41

(d) Penalty for importation or exportation
A person who knowingly or intentionally-(1) imports or exports a listed chemical with intent to manufacture a controlled
substance in violation of this subchapter or subchapter I of this chapter;
(2) exports a listed chemical in violation of the laws of the country to which the
chemical is exported or serves as a broker or trader for an international
transaction involving a listed chemical, if the transaction is in violation of the
laws of the country to which the chemical is exported;
(3) imports or exports a listed chemical knowing, or having reasonable cause to
believe, that the chemical will be used to manufacture a controlled substance in
violation of this subchapter or subchapter I of this chapter;
(4) exports a listed chemical, or serves as a broker or trader for an international
transaction involving a listed chemical, knowing, or having reasonable cause to
believe, that the chemical will be used to manufacture a controlled substance in
violation of the laws of the country to which the chemical is exported;
(5) imports or exports a listed chemical, with the intent to evade the reporting or
recordkeeping requirements of section 971 of this title applicable to such
importation or exportation by falsely representing to the Attorney General that
the importation or exportation qualifies for a waiver of the 15-day notification
requirement granted pursuant to paragraph (2) or (3) of section 971(f) of this
title by misrepresenting the actual country of final destination of the listed
chemical or the actual listed chemical being imported or exported;
(6) imports a listed chemical in violation of section 952 of this title, imports or
exports such a chemical in violation of section 957 or 971 of this title, or
transfers such a chemical in violation of section 971(d) of this title; or
(7) manufactures, possesses with intent to distribute, or distributes a listed
chemical in violation of section 959 of this title.2
shall be fined in accordance with Title 18, imprisoned not more than 20 years in
the case of a violation of paragraph (1) or (3) involving a list I chemical or not
more than 10 years in the case of a violation of this subsection other than a
violation of paragraph (1) or (3) involving a list I chemical, or both.

42

